<html>
<title> - CHALLENGES TO NATIONAL SECURITY: CONSTRAINTS ON MILITARY TRAINING</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




   CHALLENGES TO NATIONAL SECURITY: CONSTRAINTS ON MILITARY TRAINING

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2001

                               __________

                            Serial No. 107-3

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
75-041                     WASHINGTON : 2001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 9, 2001......................................     1
Statement of:
    Fallon, Admiral William J., Vice Chief, Naval Operations, 
      U.S. Navy; General John P. Jumper, Commanding Commander, 
      Headquarters Air Combat Command, U.S. Air Force, Langley 
      Air Force Base; Lieutenant General Larry R. Ellis, Deputy 
      Chief of Staff for Operations and Plans, U.S. Army; and 
      Major General Edward Hanlon, Jr., Commanding General, U.S. 
      Marines Corps, Camp Pendleton..............................    32
    LaPorte, Lieutenant General Leon J., Commanding General, III 
      Corps and Ft. Hood, U.S. Army; Brigadier General James R. 
      Battaglini, Deputy Commanding General, 1st Marine 
      Expeditionary Force, U.S. Marine Corps; Captain William H. 
      McRaven, Commodore, Naval Special Warfare, Seal Group One, 
      U.S. Navy; and Colonel Herbert J. Carlisle, Commander, 33rd 
      Fighter Wing, Eglin Air Force Base, U.S. Air Force.........   170
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia, prepared statement of..........................    46
    Battaglini, Brigadier General James R., Deputy Commanding 
      General, 1st Marine Expeditionary Force, U.S. Marine Corps, 
      prepared statement of......................................   216
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     9
    Carlisle, Colonel Herbert J., Commander, 33rd Fighter Wing, 
      Eglin Air Force Base, U.S. Air Force, prepared statement of   258
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    22
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia, prepared statement of...................    27
    Delahunt, Hon. William D., a Representative in Congress from 
      the State of Massachusetts, prepared statement of..........   135
    Ellis, Lieutenant General Larry R., Deputy Chief of Staff for 
      Operations and Plans, U.S. Army, prepared statement of.....    76
    Fallon, Admiral William J., Vice Chief, Naval Operations, 
      U.S. Navy, prepared statement of...........................    34
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York, prepared statement of...............     3
    Hanlon, Major General Edward, Jr., Commanding General, U.S. 
      Marines Corps, Camp Pendleton, prepared statement of.......   105
    Jumper, General John P., Commanding Commander, Headquarters 
      Air Combat Command, U.S. Air Force, Langley Air Force Base, 
      prepared statement of......................................    50
    LaPorte, Lieutenant General Leon J., Commanding General, III 
      Corps and Ft. Hood, U.S. Army, prepared statement of.......   172
    McRaven, Captain William H., Commodore, Naval Special 
      Warfare, Seal Group One, U.S. Navy, prepared statement of..   238
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii:
        Information concerning a resolution......................   147
        Information concerning Makua.............................   152
        Prepared statement of....................................   144
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    16
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................   133

 
   CHALLENGES TO NATIONAL SECURITY: CONSTRAINTS ON MILITARY TRAINING

                              ----------                              


                         WEDNESDAY, MAY 9, 2001

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:45 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Morella, Horn, 
Davis of Virginia, Barr, Ose, Lewis, Davis, Putnam, Otter, 
Schrock, Hansen, Mink, Maloney, Cummings, Kucinich, Tierney, 
and Clay.
    Staff present: Kevin Binger, staff director; David A. Kass, 
deputy chief counsel; Grace Washbourne, professional staff 
member; Thomas Bowman, senior counsel; Lawrence Halloran, staff 
director, Subcommittee on National Security, Veterans Affairs 
and International Relations; Gil Macklin, senior investigator; 
Nicholas Palarino, senior policy analyst, Subcommittee on 
National Security, Veterans Affairs and International 
Relations; Mark Corallo, director of communications; Andre 
Hollis, counsel; Sarah Anderson, staff assistant; Robert A. 
Briggs, chief clerk; Robin Butler, office manager; Michael 
Canty, legislative assistant; Josie Duckett, deputy 
communications director; John Sare, deputy chief clerk; 
Danleigh Halfast, assistant to chief counsel; Corinne 
Zaccagnini, systems administrator; and Jean Gosa and Earley 
Green, minority assistant clerks.
    Mr. Burton. The committee will come to order.
    I ask unanimous consent that all Members' and witnesses' 
opening statements be included in the record and without 
objection, so ordered.
    I ask unanimous consent that all articles, exhibits, 
extraneous and tabular material referred to be included in the 
record and without objection, so ordered.
    I ask unanimous consent that Chairman Hansen and Delahunt 
who are not members of the committee be allowed to participate 
in today's hearing, and without objection, so ordered.
    I will defer my opening statement in deference to the 
youthful, vigorous Ben Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    You are very kind to allow me to precede the regular order. 
I do have an important hearing on Iran in subcommittee.
    I want to commend you for conducting this hearing on 
challenges to national security and the constraints on our 
military training. I want to commend all of our officers who 
are here today, who are willing to give the best of their 
experience and ability to our committee as we examine this 
issue.
    Our Nation continues progress in science and technology 
that makes us the envy of peoples around the globe. These 
advances facilitate development and renewal in our Nation 
fostering a better quality of life for us all. With the new 
possibilities in communications and growth in the technology, 
leadership has to cope with these changes which affect training 
and exercise programs.
    These shifts in technology and the quality of life 
expectations, some we can anticipate and some we may not, must 
be accommodated in a way that keeps our military second to none 
as we facilitate advances in our technology and the growing 
expectations that improve all of our lives. Our hearings today 
are a part of that process.
    I look forward to learning from our distinguished military 
commanders and working with you, Mr. Chairman, to find ways to 
protect our national interest in all of these issues.
    Thank you for allowing me to precede the normal order.
    [The prepared statement of Hon. Benjamin A. Gilman 
follows:]

[GRAPHIC] [TIFF OMITTED] T5041.001

[GRAPHIC] [TIFF OMITTED] T5041.002

[GRAPHIC] [TIFF OMITTED] T5041.003

    Mr. Burton. Thank you, Chairman Gilman. You are excused. 
When you get a chance, come back.
    First of all, let me say I was a private in the Army. I 
don't want to hear any hisses from the Marines, the Air Force 
or the Navy. I haven't seen this many stars, unless I was out 
at night looking up at the sky. I am very impressed with all 
the military personnel, the admirals, the generals, and the 
colonels and other personnel who are here today. We appreciate 
your being here. We think this is a very important hearing.
    Let me start by saying to perform a growing number of 
missions from peacekeeping to assaulting and keeping a hostile 
beachhead, the men and women of our Armed Forces must train as 
they would fight. They must train under conditions as much like 
the real thing as possible. More than anything else, military 
readiness depends on realistic training.
    Sending units into unfamiliar terrain increases mission 
risks. Combining air, sea and ground forces for the first time 
in battle will invite disaster. Dropping dummy bombs and firing 
inert ordnance cannot replace live fire drills. Commanders must 
be sure both men and machines are mission capable, but the 
availability of realistic training is eroding. Defense 
Department training ranges here and overseas are under siege 
from the land, the water, the air and the airways. From Vieques 
to San Clemente Island, from Norfolk, VA to Camp Pendleton, CA, 
combat training is being hemmed in. It is being hemmed in by 
commercial development, environmental regulations, air space 
restrictions and conflicts over use of the radio frequency 
spectrum.
    Urban development has marched literally to the front gates 
of the once remote training installations. War is a noisy 
business, so is training for war. Noise restrictions that are 
often demanded by a base's new neighbors limit the use of 
artillery ranges and force important low altitude maneuvers to 
unrealistically high altitudes.
    As development consumes open space around training ranges, 
compliance with State and Federal environmental regulations 
becomes more complex and more costly. Some Defense Department 
land has become a haven for endangered species, a habit of last 
resort. The burden of protecting wildlife and habitat may be 
overwhelming the primary training mission as the amount of land 
in the Defense Department set aside to protect species like the 
fairy shrimp, the gnat-catcher and the checker-spot butterfly 
expands, training lanes become artificially narrow. Drills 
become predictable and repetitive. Readiness declines which is 
something we cannot tolerate because we don't know what the 
future holds and we have to have the military prepared to deal 
with any eventuality.
    The vast growing demand for commercial air travel means 
less air space for military pilots and already overcrowded 
skies. The explosion of wireless technologies threatens to push 
military equipment off the prime radio frequencies just as we 
are spending billions to link our forces on the digital 
battlefield.
    Today we are convening the first in a series of hearings on 
this group of issues known as encroachment. The term 
encroachment is used because these developments gradually 
operate to crowd out the large scale, realistic training 
indispensable to force readiness.
    For the most part, the military's answer to encroachment 
challenges has been to work around the immediate problems while 
attempting to minimize the impact on the quality and quantity 
of training but the cumulative impact of this stop gap approach 
is not being addressed. The previous administration studied 
these issues but made no real proposals for long term 
solutions. These problems are affecting the ability of our 
forces to fight and this administration needs to tackle this 
problem before it gets out of control.
    We will be reporting what is said at this hearing to the 
President and the administration to make sure they are aware of 
all the concerns of the people who are in the military who are 
leading our fighting forces.
    In 1999 at the Citadel, President Bush said, ``The military 
must improve the quality of training. Shortfalls on the proving 
ground become disasters on the battlefield.'' The people 
sitting before us today do not need to be told that, so today 
we invite the Army, the Navy, the Marines and the Air Force to 
describe the unique encroachment challenges facing each 
service. I will ask them to discuss the operational 
difficulties faced by those whose job it is to make American 
soldiers, sailors, airmen and Marines ready for war.
    Just like professionals everywhere, the members of our 
Armed Services need to continually practice their skills in the 
most realistic settings. They are the heart of this hearing. We 
want to know in detail how military readiness and national 
security are being affected by limitations and constraints on 
the size, shape and amount of training.
    In future hearings, we will hear from the other Federal 
agencies involved with the Defense Department in addressing 
these issues, the U.S. Fish and Wildlife Service, the 
Environmental Protection Agency, the Federal Aviation 
Administration, and the National Telecommunications and 
Information Administration.
    In my view, the issue is not readiness versus the 
environment or readiness versus development, or readiness 
versus commercial aviation. We should not have to choose. The 
central question before us in these hearings is how all these 
important national interests can be advanced in a balanced and 
cooperative way.
    Foreign military leaders often ask how it is possible for 
us to assign major combat responsibilities to non-commissioned 
officers and enlisted personnel, responsibilities that would 
only be entrusted to high-ranking officers in their countries. 
The answer is training. In an amphibious assault, our most 
advanced, over the horizon craft is a $23 million per copy 
landing craft air cushion. It is operated entirely by a crew of 
five enlisted sailors.
    When we call upon our military, active duty reservists and 
National Guard to go into harm's way, we should do so only with 
the complete confidence that they are ready. They will only be 
ready if they are thoroughly trained and they have the right to 
expect training that is going to be thorough. We as a Nation 
have an obligation to provide it.
    We have a number of very senior officers from all four of 
the branches of our Armed Services here to testify today. It is 
a very distinguished group. As an enlisted man, I have 
difficulty talking.
    When I was in the Army, when a Second Lieutenant, the 
lowest form of officer life, would walk by, I would get the 
quivers, I would shake and say, yes, sir. So when four star 
generals come before this committee, I can't hardly stand it 
but I have to tell you, it is a real honor to have you all 
here. Thank you for being here and I look forward to hearing 
your testimony.
    We have Mr. Hansen here and I am pleased to welcome him to 
today's hearing. As chairman of the House Committee on 
Resources and a senior member of the Armed Services Committee, 
Congressman Hansen has been a leader in ensuring our military 
personnel receive the best possible training and particular, he 
has been a leader in focusing us all on the encroachment issues 
we are addressing here today. It was largely as a result of his 
efforts that the Pentagon began to focus on encroachment. I 
really appreciate your being here today.
    We don't see any of our Democratic colleagues here yet, but 
I am sure they will be here. Let me start with Congresswoman 
Morella for an opening statement if you choose.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.004
    
    [GRAPHIC] [TIFF OMITTED] T5041.005
    
    [GRAPHIC] [TIFF OMITTED] T5041.006
    
    [GRAPHIC] [TIFF OMITTED] T5041.007
    
    [GRAPHIC] [TIFF OMITTED] T5041.008
    
    Mrs. Morella. I don't have any opening statement except I 
am also in awe and want to thank those who are going to be 
testifying and also those who serve us in our Armed Forces who 
are here today.
    Thank you.
    Mr. Burton. Mr. Shays.
    Mr. Shays. I do have a statement given our National 
Security Committee has jurisdiction over this issue as well.
    From the wreckage of Desert One, the site of the failed 
hostage rescue mission to Iran in 1980, an iron rule of 
military readiness was forged, trained personnel and test 
equipment under combat mission conditions. Adherence to that 
doctrine meant U.S. forces were ready to lead the coalition to 
victory in the Gulf war and it has sustained a skilled, 
technologically superior military through an accelerated pace 
of regional actions and peacekeeping operations.
    Now as the administration begins to explore the expanding 
strategic landscape into which we will be sending our forces in 
the future, the training platform they need to prepare for 
those missions is shrinking. Here at home and abroad, the land, 
sea lanes, air space and frequency spectrum once used for 
indispensable, realistic military training are being put to 
other uses. Readiness is being compromised.
    Last year a Navy battle group sailed for the Middle East 
without having completed the combined air, sea, land firing 
exercises required for the deployment. Denied access to the 
training ranges on Vieques Island, Puerto Rico, separate parts 
of the battle group had to go begging for access to foreign 
ranges on the way to be sure their guns fired properly before 
they took their post in that volatile part of the world.
    The Subcommittee on National Security, Veterans Affairs, 
and International Relations, which I chair, has held numerous 
hearings on how the Federal Government should be organized and 
prepared to combat terrorism. Just as the Department of 
Defense, the Environmental Protection Agency, the Federal 
Aviation Administration, the Federal Communications Commission 
and other agencies have a role to play in meeting the national 
security threat, they have a responsibility to help sustain 
military readiness against all threats. Our hearings on 
challenges to readiness will explore those shared 
responsibilities.
    We begin today with the military service branches charged 
by law to provide trained and ready forces. It is too easy and 
ultimately unproductive to cast this issue solely in terms of 
military readiness versus environmental compliance. If all 
questions of environmental compliance could be resolved 
tomorrow, training space would still be shrinking under the 
accumulated weight of other challenges.
    To be sure, we will hear a good deal today about the loss 
of training ground and about the cost and inconvenience of 
environmental stewardship on training ranges. In this and in 
future hearings, we may well also hear about some notable and 
regrettable lapses in DOD natural resource management. Neither 
point of view justifies succumbing to the false choice between 
national security and environmental security.
    As one Army study put it, ``Reconciling these interests is 
not a question of black and white, but a more complex and 
subtle matter requiring appreciation of many shades of green.'' 
A lighter more mobile Army, an expeditionary Air Force, a 
global Navy, unmanned aerial vehicles, space-based assets 
supporting a linked digital battle space all will extend the 
reach of U.S. forces.
    The hard lessons learned in Desert One compel us to be sure 
realistic training will be available to the men and women 
called upon to fight and win those future battles.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.009
    
    [GRAPHIC] [TIFF OMITTED] T5041.010
    
    Mr. Burton. Mr. Lewis.
    Mr. Lewis. No statement.
    Mr. Burton. Mr. Davis.
    Mr. Davis. I will be brief.
    I want to thank you and your staff for holding this hearing 
today and I believe today's subject matter is critical as we 
determine the constraints our military faces in training and 
how these restrictions might affect our readiness.
    This hearing will bring to light many issues relating to 
encroachment on training ranges which presents a serious and 
growing challenge to force readiness.
    I want to thank all the witnesses for taking time from 
their busy schedules to be here today. The United States has 
the best and most prepared military in the world today and our 
military is the envy of every nation. Our forces continue to 
demonstrate their effectiveness whenever they are called to 
duty. Our U.S. Marines, soldiers, sailors and airmen work 
together to protect our national interests around the world and 
our freedom here at home. The men and women in uniform are the 
key to our strength and the source of our pride.
    Congress has become increasingly concerned about the state 
of our military readiness, not only in terms of modernization 
but also training and preparation, especially in this global 
and ever-changing environment. It is undeniable that technology 
has pushed the edge on what we can do and increased the need 
for speed, stealth and accuracy. This is especially true when 
it comes to educating, coordinating and training Marines, 
soldiers, sailors and airmen. Military training is unique, 
difficult and extensive.
    I have heard from our men and women in uniform who have 
expressed serious concerns about the limitations and 
restrictions which have been imposed on training due to such 
challenges as noise complaints, competition of air space, loss 
of spectrum frequency and most commonly, rapid and expanding 
suburban growth around military bases.
    I look forward to hearing our witnesses testify and having 
the opportunity to listen to their firsthand experience working 
on these complicated issues while focusing on training and 
readiness.
    Thank you.
    Mr. Burton. Mr. Schrock.
    Mr. Schrock. I want to thank you for holding these hearings 
today. As a retired Navy captain and a representative of a 
district that is home to the world's largest naval base and 6 
other major military commands and 138 small commands, the 
status of military readiness and training is a very important 
issue to me.
    Today, this committee will hear testimony regarding the 
Naval Air Station Oceana located in the center of Virginia 
Beach, VA's largest city. Oceana is home to various fighter 
aircraft, specifically the F-18 Hornet and Super Hornet and the 
F-14 Tomcat. These aircraft are deployed with the aircraft 
battle groups from the Hampton Roads area.
    To prepare for deployment, a first tour pilot is required 
to successfully perform approximately 180 to 200 takeoffs and 
landings at Oceana and nearby naval auxiliary landing field, 
Fentress in Chesapeake, VA.
    Over the past two decades, residential and commercial 
development has expanded in the Virginia Beach and Chesapeake 
areas. Today, the two airfields are completely surrounded by 
residential development. In response to citizen concerns about 
excessive jet noise, the Navy has modified the flight patterns 
by increasing the normal carrier landing pattern altitude of 
600 feet to 800 feet and 1,000 feet for Fentress and Oceana 
respectively. The Navy has further modified their standard 
flight pattern to avoid two new housing subdivisions that were 
constructed while Fentress was closed for runway repairs.
    The cumulative effect of these modifications is that Navy 
pilots do not practice in a realistic training environment in 
what many say is the most crucial phase of a flight for a naval 
aviator, landing on an aircraft carrier.
    Last month, nine families from Virginia Beach and 
Chesapeake filed a class action lawsuit against the Navy for 
inverse condemnation. They claim that the noise from military 
aircraft has reduced the value of their homes resulting in a 
Federal taking of private property without just compensation by 
the Navy or the Federal Government.
    The Navy has been working in good faith with the local 
government bodies, civic leagues and other groups on military 
aircraft noise issues. The Navy is spending millions of dollars 
to construct a hush house for ground level aircraft engine 
testing and is committed to building a new outlying field in a 
remote area where naval aviators can practice their maneuvers 
while preventing disturbances in residential areas.
    We need to face the facts, military aircraft make a lot of 
noise and this noise disturbs the people living in the areas 
surrounding military airfields. Expectations for the commercial 
air transportation system are primarily related to quality of 
life issues. The public's demand for reductions in aircraft 
related noise is justified and will continue until the public's 
expectations are met.
    Evidence that concerns over aircraft noise is growing is 
the dramatic growth in local noise-related restrictions at 
commercial airfields which have grown from 257 ordinances in 
1980 to over 832 in 2000. The military operates under different 
but critical guidelines. Our Nation's military aircraft are 
designed to be the best in the world. Because of this, military 
aircraft are optimized for performance with virtually no 
significant discussion of military jet noise. Unfortunately, 
with optimal performance comes more noise.
    However, current technologies that have led to the 
reduction of noise by commercial aircraft can apply to military 
aircraft as well. Today, I am submitting an appropriations 
request for $30 million to be provided to the National 
Aeronautics and Space Administration, Langley Research 
Facility, Hampton, VA for military aircraft noise reduction 
research. It is important to insert here that no one is 
suggesting that we negotiate on our military aircraft 
performance, speed or maneuvering abilities.
    NASA has developed noise reduction technologies for 
commercial aircraft which has reduced the 1997 noise footprint 
baseline by 40 percent. Historically, NASA has developed 
technological solutions for tomorrow's community noise impact 
issues for commercial air transportation. In this role, NASA is 
the technological broker between the FAA, industry and citizens 
groups. NASA is unique in its expertise, facilities and 
inherent government role to lead the technology development to 
meet military aircraft noise related issues.
    It is critical that Navy pilots are provided realistic 
training prior to deployment. It is also critical that the 
military do whatever they can to address the quality of life 
issues for both the communities and our pilots.
    I am looking forward to hearing from the members of the 
military here to testify today.
    Thank you again for holding this hearing.
    Mr. Burton. Thank you.
    Mr. Clay.
    Mr. Clay. I welcome the opportunity to meet with the 
committee today and I also welcome the military leaders who are 
testifying today.
    I do understand that your job is not an easy one. On the 
one hand, you have the training mission of your respective 
branch of service to implement and on the other hand, you have 
the responsibility to not adversely impact the lives of the 
inhabitants of areas in which you train. Some adverse impacts 
occur that are almost unavoidable. They happen because certain 
agents are used and the accumulated residue of their use 
becomes a hazard. Some occur because of accidents, carelessness 
and other causes. Whatever the reasons, remedies must be used 
to quickly and efficiently eliminate hazards caused by 
training.
    The health of the communities impacted by training should 
not be compromised. I am sure we all agree on this. This is not 
a forum to bash the men who serve our Nation's flag. I salute 
all of you knowing that you individually would not be here were 
you not a top soldier.
    I too advocate a strong military and in doing so realize 
that to be strong necessitates training. I also advocate making 
repairs of damages that may result as a byproduct of that 
training.
    I represent the First District of Missouri. It is located 
in St. Louis, MO. In my district, we have problems that have 
existed for several years. The Army closed the Aviation and 
Troop Command as required by the 1995 Base Realignment and 
Closing Initiative. Across the street, the Army closed the St. 
Louis Ordnance Plant beginning in the early 1990's and 
completed the closing in 1998. The communities affected by the 
process were eligible for assistance through DOD funds 
channeled through the Economic Development Administration to 
help replace the loss of jobs and related economic activity.
    Unfortunately, in St. Louis this was not the case. The Army 
did not own the ADCOM or the SLAP sites. The sites were leased 
from GSA. Consequently, St. Louis has been ineligible to 
receive any share of the hundreds of millions of dollars 
granted to other communities for infrastructure improvement 
associated with economic development and job replacement 
strategies.
    Closure of ADCOM and SLAP has cost the St. Louis community 
in excess of 4,700 well paying jobs. The loss has been 
devastating to the local economy, yet the city has received 
only limited planning dollars from DOD's Office of Economic 
Adjustment and no assistance in the form of land or 
infrastructure improvement dollars.
    I have some questions I will ask the panels regarding this 
matter. I ask unanimous consent to submit my statement.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.011
    
    [GRAPHIC] [TIFF OMITTED] T5041.012
    
    [GRAPHIC] [TIFF OMITTED] T5041.013
    
    Mr. Burton. Mr. Otter.
    Mr. Otter. Let me associate myself with your earlier 
comments about being an enlisted man in front of all the stars. 
Coming from the armored cab at Ft. Knox, KY, I too was always 
in absolute fright whenever I would see those stars come 
around.
    Thank you for the opportunity to address this issue and 
thank you to the soldiers in uniform who have taken the time 
out of their busy schedules to be here today.
    Military readiness and training is essential to national 
security. In George Washington's first annual address to 
Congress, he underscored the importance of a strong military by 
stating, ``To be prepared for war is the most effectual means 
of preserving the peace.'' What he said over 200 years ago 
still rings true today. However, no one in Washington's day 
could have envisioned the onslaught of Federal regulations and 
rules and red tape that have threatened the national security 
and our military readiness.
    Our military is increasingly faced with defending more 
lawsuits than they are defending our Nation and is forced to 
comply with scientifically baseless regulations which severely 
restrain its ability to train new recruits. Truly a national 
tragedy is that years ago when the Army Corps of Engineers 
built the roads and the bridges to advance these same corps, 
they now build barriers to halt them in their tracks. This 
trend must come to an end.
    We simply should not have to tell the parents of a downed 
American soldier that their son or daughter wasn't ready for 
war potentially because we couldn't prepare them. We should not 
have to explain to American parents that instead of training 
their sons and daughters for battle, we had to spend time and 
money focusing on the red tape and the bureaucracies.
    In recent years, millions of acres have been set aside and 
designed for land and wildlife protection and preservation. 
These lands are regulated and managed by the National Park 
Service, the U.S. Fish and Wildlife, the U.S. Forest Service 
and the Bureau of Land Management. While no one disputes the 
value of setting aside certain lands for certain species in 
certain areas, land setaside for military training must be 
protected from frivolous lawsuits. Without the national 
security of this Nation to protect the sage brush, the 
crickets, rats, bugs and other creatures will be meaningless. 
We cannot let these lawsuits compromise our military training.
    Let me give you an example of how a few people can 
compromise readiness and tie the hands of our men and women in 
the military. In Idaho, Mountain Home Air Force Base has been 
tied up by several environmental lawsuits from the Wilderness 
Society, Committee on Idaho's High Desert, the Idaho 
Conservation League and the Idaho Rivers United amongst many, 
many others. One of these lawsuits was filed because the Air 
Force wanted to build a bridge for maneuvering exercises. 
However, a small wetland at a potential bridge site may have 
been suitable habitat for spotted frogs, northern leopard frogs 
and western toads. Even though none of these species were found 
at the site, the project was halted for a temporary period of 
time.
    In the international world, the United States will face 
many greater enemies. Among those 82 nations I have had an 
opportunity to travel to I have found the seeds of greater 
armies and greater strength than we have ever faced before. As 
such, we must ensure that our men and women are prepared to 
fight for freedom, that needed equipment and supplies do not 
receive lower priority than environmental studies and the 
military readiness will be at an all time high.
    Aside from those most distinguished who appear before us 
today, I am hopeful we will also invite airmen and airwomen, 
sailors and soldiers who have firsthand experience having been 
in harms way and having not had sufficient training as a result 
of some environmental overload so that they can come before us 
and give us a firsthand story of what happened to them.
    Again, thank you for bringing these important issues to the 
attention of our committee. I hope through investigation and 
testimony, we can restore common sense and bring the importance 
of national security and military training back into focus.
    Mr. Burton. I will say that is something we had not 
considered but will consider, talking to some enlisted 
personnel whose training was cut short or affected by some of 
these frivolous suits. We will take a look at that.
    Ms. Davis.
    Ms. Davis. I have submitted a statement for the record.
    [The prepared statement of Hon. Jo Ann Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.014
    
    [GRAPHIC] [TIFF OMITTED] T5041.015
    
    Mr. Burton. Mr. Horn. Let me say the last hearing we had, 
you had a number of questions and for some reason, we didn't 
get to you in a timely fashion and I want to apologize for 
that.
    Mr. Horn. Thank you.
    I have in front of me this paper, ``Military Installations 
by Congressional District.'' There are a number of errors in it 
and whoever handled it, I would be glad to tell them where the 
errors are. Jane Harmon is not a Republican, she is a 
Democratic. I must say if there is anything left of the Long 
Beach Naval Station where there was some 30 vessels and 
thousands of people starting in 1991, there is probably one 
little brick left.
    The Long Beach Naval Shipyard, which was put out of 
business because of Portsmouth is still around and yet they 
didn't have 10 percent of the record, that has been completely 
leveled except for the 1,000 foot long dock. There are some 
training operations there by the Coast Guard, the Marines and 
the Army. That is about it. We would love to have more 
training.
    We were sorry to see the Navy close up the pharmacy and I 
think it was moved to Seal Beach which is a few miles down the 
road.
    I did this in another hearing yesterday. We just haven't 
had the expertise of the Pentagon in getting rid of some of the 
contamination and that kind of thing and that is what we need 
in most of these barracks when they are closed. There are real 
problems. You need to get a brownfield there where you can have 
something industrial and that is what we have done. We have put 
it to the Port of Long Beach to use that property.
    Thank you.
    Mr. Burton. Mr. Cummings, do you have an opening statement?
    Mr. Cummings. No, I don't, Mr. Chairman. I am looking 
forward to hearing from the witnesses.
    Mr. Burton. Chairman Hansen, we saved the best for last. Do 
you have an opening statement?
    Mr. Hansen. I appreciate the opportunity to meet with this 
committee today.
    As I have been listening to the opening statements, they 
have covered almost everything I would like to say but if I may 
hit a few things I would appreciate it.
    I find it interesting every time we have the President of 
the United States here because one of the things they always 
say in their remarks is we have the best equipped and best 
trained military. That is nice to say but I almost think that 
promise we have given all our people is somewhat in jeopardy 
right now because I don't know how the training will go.
    I don't think there is any question in anybody's mind if 
you want to have the casualties go up, just stop training. I 
think that is the thing that is going to happen. We find 
ourselves in a situation on the Armed Services Committee and 
the Resource Committee of trying to say where is all this 
encroachment coming from? Frankly, it is like a slow moving 
cancer, every time I turn around there is another fire to put 
out on another range somewhere whether it is done for political 
reasons as I think some have been, or done because of 
commercial reasons, or environmental reasons, I don't know but 
every time I turn around there is another staring me in the 
face.
    As I take a very active part as chairman of the Resource 
Committee and one of the old dogs on the Armed Services 
Committee, I find myself in that position but I think there are 
a few things we have to look at.
    First and foremost is the fact that national defense 
benefits all Americans, it is not a luxury. The economic well 
being of our Nation depends on the security provided by the 
Armed Forces and far too often this is taken for granted.
    The second issue is the ability of the military to 
accomplish its assigned mission that is tied directly to 
readiness and the readiness of our military men and women 
requires access to realistic training. Therefore, our military 
ranges must be treated as the national asset they are and must 
be preserved for the security of the Nation.
    The third fact is training saves lives. It bothers me if I 
may say so as we look for what these Navy and Marine folks have 
on the East Coast, the thing that has always been a great asset 
to them has been Vieques. I have been there a couple of times 
and I am somewhat amazed that we are now going through this 
exercise of whether or not they will train there.
    I don't know if I will have this opportunity later but I 
would be very curious to know where you Navy folks, Marine 
people think you are going to go on the East Coast. I have 
heard everything from Jordan--have fun going up the Suez Canal, 
folks. I think that will be very interesting. I have heard 
Scotland, Italy and other areas. I really seriously doubt if 
any of those are going to work.
    The Air Force people as I look at the 33 areas we have in 
which we have live fire in the United States in the lower 48, 
every one of those we have now made an inventory and have gone 
through a certain amount of problems they have.
    The Utah Testing Training Range, in my district, is a huge 
district, zero to 58,000 feet of clear air space. Where do you 
find that. Where else do you find clear air space like that? 
Everyone says a few F-16s fly over there, they don't understand 
that.
    We have the Navy coming in from Fallon, the Air Force 
coming up from Nellis, the Air Force coming from Mountain Home, 
and I use that as an example. I could talk about all of them 
but I know I don't have that time. As I look at that, we now 
have a huge encroachment from the environmental community 
because they found a slimy slug or the ``ring-tailed ruperts'' 
or something out there that they want to work on and it comes 
down to the idea that some of these things you have to balance 
one between the other. We now finally after 4 years put the 
desert big horn sheep on it and that was after we looked at it 
in great detail to make sure the Newfoundland mountains were 
safe for them and safe for everyone and would not encroach upon 
the range.
    I hope some hot rod kid in an F-16 doesn't find those an 
easy target after all the work we went through. I say that 
respectfully. Don't take that any other way.
    We also get down to the idea of Goshan Indians want to put 
in the high level nuclear waste in that area. Fine. What do I 
hear from the Commander of the 388th, we don't want to fly 
there if there is an infinitesimal chance of something 
occurring. That may cut the range back 30 to 40 percent all by 
itself.
    The list goes on and on. Overflights, last year a very big 
environmental community or club you would all recognize filed a 
lawsuit right here in Washington before a very liberal judge 
that said you can't fly military aircraft over public land 
under 2,000 feet. Tell me how you are going to train?
    I put an amendment in the Armed Services bill that 
grandfathered that. Strangely enough when we finally got up to 
conference what did we find, we find the Secretary of Defense 
wrote over and said please take the Hansen language out because 
the environmental community would find it offensive. I can't 
believe that. We left it in. It comes down to the idea that 
negated that lawsuit.
    Then I find people who say we can't train on BLM ground, 
the environmentalists don't want us there. We have been 
training, the Army and the Marines, on BLM ground for years and 
probably can continue to do it. I personally have gone to some 
of those sites. They are in good shape, they reclaim them. They 
do a fine job doing it. In fact, some are better than when they 
went in there. Yet every year we are challenged with lawsuits 
in areas like that.
    Someone has to get their grips on this thing and come up to 
the realistic fact that we have to train our people. If we 
don't, I think we are in great jeopardy.
    As far as a senior member of the Armed Services Committee, 
I think Chairman Stump is going to hold similar meetings to 
yours and I compliment you for doing this.
    Thank you.
    Mr. Burton. We will be contacting the administration as I 
am sure the Armed Services Committee will, giving them a full 
report on what the panel said and what the members of the 
military say.
    We would like you to stand to be sworn in if you don't 
mind.
    [Witnesses sworn.]
    Mr. Burton. Mr. Schrock, I think you have an introduction 
you would like to make?
    Mr. Schrock. It is my distinct pleasure to introduce to you 
and the members of the Government Reform Committee Admiral 
William Fox Fallon. Admiral Fallon currently serves as the Vice 
Chief of Naval Operations, the Navy's second highest position.
    For our topic of discussion today, Admiral Fallon brings a 
wealth of experience, wisdom and knowledge he has received from 
a very distinguished career. Admiral Fallon began his career 
flying combat missions in Vietnam. He has logged over 1,300 
carrier landings and has flown over 4,800 hours in tactical jet 
aircraft. He was in charge of the Air Wing on the aircraft 
carrier Theodore Roosevelt during Operation Desert Storm. As an 
Admiral, he commanded the entire Roosevelt Battle Group during 
combat operations in Bosnia.
    More recently, then Vice Admiral Fallon was the Commander 
of the Second Fleet. During that assignment, Admiral Fallon 
became the Navy's foremost expert on training and ranges. Along 
with General Pete Pace, then the Commanding General of all 
Marine forces in the Atlantic, Admiral Fallon authored the July 
1999 study on ``National Security Needs for Vieques,'' an 
effort that included an exhaustive investigation of alternative 
training sites.
    Last October, Admiral Fallon received his fourth star and 
became the 31st Vice Chief of Naval Operations. As the Navy's 
second highest ranking officer, Admiral Fallon remains the 
point man and principal advocate for the absolutely critical 
training that our naval forces require to ensure they are 
prepared to go at a moment's notice into harms way.
    Mr. Chairman, it is my pleasure to present to you and the 
members of the committee, Admiral Bill Fox Fallon.
    Mr. Burton. How did you get the nickname of Fox?
    Admiral Fallon. If I can respectfully request to defer that 
question.
    Mr. Burton. We will let that go.
    Do you have an opening statement?

  STATEMENTS OF ADMIRAL WILLIAM J. FALLON, VICE CHIEF, NAVAL 
   OPERATIONS, U.S. NAVY; GENERAL JOHN P. JUMPER, COMMANDING 
  COMMANDER, HEADQUARTERS AIR COMBAT COMMAND, U.S. AIR FORCE, 
  LANGLEY AIR FORCE BASE; LIEUTENANT GENERAL LARRY R. ELLIS, 
DEPUTY CHIEF OF STAFF FOR OPERATIONS AND PLANS, U.S. ARMY; AND 
  MAJOR GENERAL EDWARD HANLON, JR., COMMANDING GENERAL, U.S. 
                 MARINES CORPS, CAMP PENDLETON

    Admiral Fallon. Members of the committee, it is a great 
honor to be invited here to offer some thoughts to you on this 
most important topic. I have a written statement which I would 
enter for the record. I would like to make a couple of points.
    The fundamental issue today is without realistic combat 
training, particularly training with live ordnance, we are 
unable to adequately prepare our young men and women for the 
operations and potential combat service which they may be 
required to perform in service to this Nation. That is the real 
issue.
    Increasingly we are having difficulty in attaining and 
maintaining the required readiness standards for our people in 
view of encroachment of all kinds throughout the world but 
particularly the training sites where we find it essential to 
have our people train before they go forward to their 
rotational deployments around the world.
    Navy and Marine Corps forces in their rotational scheme of 
deployment need to be fully trained before they leave the 
United States for a very important reason, the vast majority of 
our carrier battle groups that have left the United States from 
both the Atlantic and Pacific Coast in the last several years 
have been in combat operations over southern Iraq or in the 
Balkans and in some cases, immediately upon departure within a 
couple of weeks of leaving the States. It is imperative that we 
make sure this training is done correctly and to the fullest 
extent possible before they get in position where they have to 
go overseas because there is no telling how quickly they may 
have to. The opportunity to use foreign ranges, although 
welcome, there is no guarantee and it is not something we ought 
to plan on.
    We are finding that we are challenged particularly at sea 
these days in complying with the appropriate regulations which 
we fully do to the full extent, both in the spirit and letter 
of the legislation that is currently enacted but we are finding 
it a real challenge. We are having to modify our training 
operations to accommodate the regulations to the extent that 
our commanders must consult an often and growing lengthy list 
of rules and requirements as a prerequisite to training or 
planning any training exercise. That is increasingly a 
challenge for our people.
    Without live combat training, realistic combat training, 
not a patchwork workaround but the things they have to execute 
in the operational world must be training in advance. Without 
that, we can't send them forward in good conscience to take up 
this burden they so generously volunteered to perform on our 
behalf.
    I thank you for the opportunity to appear and answer your 
questions. We solicit your support in helping us with these 
issues. I stand ready to answer any of your questions.
    Thank you.
    [The prepared statement of Admiral Fallon follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.016
    
    [GRAPHIC] [TIFF OMITTED] T5041.017
    
    [GRAPHIC] [TIFF OMITTED] T5041.018
    
    [GRAPHIC] [TIFF OMITTED] T5041.019
    
    [GRAPHIC] [TIFF OMITTED] T5041.020
    
    [GRAPHIC] [TIFF OMITTED] T5041.021
    
    [GRAPHIC] [TIFF OMITTED] T5041.022
    
    [GRAPHIC] [TIFF OMITTED] T5041.023
    
    [GRAPHIC] [TIFF OMITTED] T5041.024
    
    [GRAPHIC] [TIFF OMITTED] T5041.025
    
    [GRAPHIC] [TIFF OMITTED] T5041.026
    
    Mr. Burton. We were just joined by the vice chairman of the 
committee, Mr. Barr. Do you have an opening statement?
    Mr. Barr. I have an opening statement but in the interest 
of moving forward with the hearing, I would ask consent to 
include it in the record.
    Mr. Burton. Without objection.
    [The prepared statement of Hon. Bob Barr follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.027
    
    [GRAPHIC] [TIFF OMITTED] T5041.028
    
    Mr. Burton. Ms. Davis, you have an introduction?
    Ms. Davis. I would like to take this opportunity to thank 
you for holding this hearing. I look forward to serving you and 
this committee in our oversight duties as we work in an effort 
to rid our government of fraud and abuse, making it more 
efficient and effective.
    I firmly believe the issues you have brought before us 
today are critically important to our national security and our 
forces are finding it more difficult to operate and train with 
the environmental, Federal and population issues that have 
increasingly risen.
    I am delighted to have the opportunity to find out from our 
military exactly where we stand on these matters. In this 
light, I am honored and privileged to introduce to this 
committee John P. Jumper, Commander of the Command Headquarters 
at Langley Air Force Base in my First District of Virginia.
    General Jumper is a man of high integrity and one of our 
Armed Forces' finest leaders. I have had the pleasure of 
meeting with General Jumper several times and I consider him a 
friend.
    As Commander of the Air Combat Command Headquarters at 
Langley Air Force Base, General Jumper holds the awesome 
responsibility of overseeing the organization, training and 
maintenance of combat ready forces for rapid deployment and 
employment while ensuring that our strategic air defense forces 
are prepared to meet the challenges of peacetime air 
sovereignty and wartime defense.
    Originally from Paris, TX, General Jumper earned his 
commission as a distinguished graduate of Virginia Military 
Institute, Class of 1966. He has commanded a fighter squadron 
and two fighter wings.
    The General also served in the Pentagon as Deputy Chief of 
Staff for Air and Space Operations, as a Senior Military 
Assistant to two Secretaries of Defense, and as a Special 
Assistant to the Chief of Staff for Roles and Missions.
    Before assuming his current duties, the General was the 
Commander of U.S. Air Forces in Europe and Commander, Allied 
Air Forces Central Europe where he served as the Chief Air 
Component Commander during Operation Allied Force.
    I look forward to hearing General Jumper's testimony 
concerning the impact of restrictions on training ranges and 
military readiness. With his knowledge of military affairs and 
his extensive experience, I am certain the General will provide 
valuable insight into this matter.
    I introduce to you today, General John P. Jumper.
    Mr. Burton. General Jumper.
    General Jumper. Thank you. It is a pleasure to appear 
before you today.
    Let me echo the remarks of my good friend, Bill Fallon, as 
he described very accurately the status of not only naval 
forces but air forces in the training environment we find 
ourselves in today. Let me give you two very distinct examples 
of why training is so vital to our combat capability.
    The first example is a B-1. The B-1s that we tried very 
hard to bring into Operation Allied Force in the war against 
Serbia. We couldn't bring them in right away because they 
needed some additional testing for the defensive systems to 
include a new version of the tow decoy that was critical to 
their defensive suite.
    The testing was done on this on the ranges at Eglin Air 
Force Base in Florida and Ellis Air Force Base in Nevada. I 
gave them the last minute confirmation that we needed to 
confirm that capability. They deployed even with the test crews 
into Operation Allied Force and we watched them on the first 
night as they penetrated through Serbia air space and those two 
towed decoys were actually shot off the back of those airplanes 
saving the lives of those crews as they prosecuted their 
mission.
    We couldn't have done that had we not had immediate access 
to complete in a very rapid fashion this testing that was 
critical to the combat capability of the B-1 bomber. Those 
seven B-1s that we had in combat went on to perform 
magnificently during the rest of the war and actually closed a 
Serbian air field that stayed close for a year after the war 
was over.
    A second incident with Lieutenant Colonel Rico Rodriguez. 
Rico is a Captain in Operation Desert Storm who had shot down 
two MIG-29s in combat. He returned again in Operation Allied 
Force in Serbia as a Lieutenant Colonel. On this occasion, he 
was chasing down two MIG-29s that were attempting to get to one 
of our ingressing strike forces. He shot down one of the 
aircraft and chased the other off in exactly the type of 
scenario that we train for day in and day out at Nellis Air 
Force Base, where all the services come and work together in 
exactly the same kind of scenario and give us the confidence to 
be able to do in the heat of combat.
    Colonel Rodriguez trained as a young captain at Eglin Air 
Force Base in Florida and his skills were honed in the skies 
over Nellis, UT and other places as he was growing up in the 
Air Force.
    I also commend Chairman Hansen and his committee and the 
Resources Committee on their efforts to coordinate with the 
military services on those pieces of legislation that could 
have profound effect. It might not even be noticed if it wasn't 
for Chairman Hansen and his staff that comes forward to the 
military services and seek out our advice on where those 
impacts might take place. It is that kind of cooperation and 
coordination that makes us keep these ranges viable and useful 
to us for advanced training.
    I would say the services have a part to play in this too. I 
confess to you with some guilt that it wasn't until about 1994 
or 1995 that the U.S. Air Force formally organized ourselves to 
address these range problems head on and formally coordinate 
with those agencies and interested citizens groups whose lives 
we impact when we do fly over the pieces of territory about 
which they are concerned.
    We have done this in the Pentagon, we have interfaced with 
the Office of the Secretary of Defense and Air Combat Command. 
We have formal groups that go out and interface, listen to the 
concerns of the people and work out the differences. We find 
this open communication, just as with Chairman Hansen's 
Resource Committee, has gone a long way to help us resolve some 
of these range issues. We plan to continue to do that.
    I thank you for the opportunity to be here today. We look 
forward to your questions.
    [The prepared statement of General Jumper follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.029
    
    [GRAPHIC] [TIFF OMITTED] T5041.030
    
    [GRAPHIC] [TIFF OMITTED] T5041.031
    
    [GRAPHIC] [TIFF OMITTED] T5041.032
    
    [GRAPHIC] [TIFF OMITTED] T5041.033
    
    [GRAPHIC] [TIFF OMITTED] T5041.034
    
    [GRAPHIC] [TIFF OMITTED] T5041.035
    
    [GRAPHIC] [TIFF OMITTED] T5041.036
    
    [GRAPHIC] [TIFF OMITTED] T5041.037
    
    [GRAPHIC] [TIFF OMITTED] T5041.038
    
    [GRAPHIC] [TIFF OMITTED] T5041.039
    
    [GRAPHIC] [TIFF OMITTED] T5041.040
    
    [GRAPHIC] [TIFF OMITTED] T5041.041
    
    [GRAPHIC] [TIFF OMITTED] T5041.042
    
    [GRAPHIC] [TIFF OMITTED] T5041.043
    
    [GRAPHIC] [TIFF OMITTED] T5041.044
    
    [GRAPHIC] [TIFF OMITTED] T5041.045
    
    [GRAPHIC] [TIFF OMITTED] T5041.046
    
    [GRAPHIC] [TIFF OMITTED] T5041.047
    
    [GRAPHIC] [TIFF OMITTED] T5041.048
    
    [GRAPHIC] [TIFF OMITTED] T5041.049
    
    [GRAPHIC] [TIFF OMITTED] T5041.050
    
    [GRAPHIC] [TIFF OMITTED] T5041.051
    
    Mr. Burton. Thank you.
    Mrs. Mink has joined us. Do you have an opening statement?
    Mrs. Mink. No.
    Mr. Burton. Mr. Shays, you have an introduction?
    Mr. Shays. Lieutenant General Larry Ellis is the Deputy 
Chief of Staff for Operations and Plans for the U.S. Army. In 
his capacity, he is responsible for developing Army policy, 
military programs and designing systems architecture. 
Additionally, he prioritizes all Army requirements and 
validates an annual $70 to $80 billion Army program. He is the 
chairman of several committees in the Department of Defense. In 
business sector terms, he is the chief operating officer for 
the Army.
    General Ellis has spent over 31 years serving in a variety 
of staff and command positions in the United States, Vietnam, 
Germany, the Republic of Korea and Bosnia. He has served in 
staff assignments at major Army Headquarters, the U.S. Military 
Academy at West Point, the Department of Army Staff, Joint, 
United Nations and Combined Headquarters. He has commanded at 
every level platoon command, battalion, and brigade and 
division.
    Before assuming his current position General Ellis 
concurrently commanded 15,000 soldiers in the First Army 
Division in Germany and 14,000 soldiers in a multinational 
division, North Bosnia.
    I am happy to introduce and present to you General Ellis. I 
would also like to say, General Ellis, we always appreciated 
the cooperation you have given our National Security 
Subcommittee, Government Reform.
    Mr. Burton. General Ellis.
    General Ellis. Thank you for the introduction.
    Thank you for providing the Army with the opportunity to 
present our concerns about what has become known as 
encroachment to our training ranges and land. This is a 
challenging issue. The fact that we are discussing it today is 
recognition that societal changes, demographics and 
environmental issues are affecting training.
    In discussing this subject, we ask that you recognize the 
unique role of the Army in national security. We carry out our 
training not for profit or personal gain, but to ensure the 
readiness of our forces. As you are aware, a high state of 
readiness is critical to the mission accomplishment and to 
ensure we do not have excessive casualties.
    We have learned hard lessons in the past when our 
priorities overshadowed the need to train young Americans to 
face the uncompromising conditions of war. When we lose sight 
of our critical mission, we risk tragic consequences. We place 
in jeopardy soldiers who volunteered to serve this Nation.
    It is interesting to note that while maintaining our areas 
for training, about one half of 1 percent of the Nation's total 
land area, we isolate those areas from development. This 
creates havens for natural and cultural resources found in very 
few other locations. Army land preservation and training 
activities carried out long before environmental statutes were 
enacted served to protect the environment.
    We would ask those who seek to limit essential training to 
recall that it was good range management practices that 
permitted havens to exist and continue to flourish. Havens have 
occurred not in spite of training but because of the Army's 
excellent range management program.
    Today I want to deliver three key messages. First, the Army 
requires continuous, rigorous training to perform its Title 10 
missions. Second, the cumulative effects of encroachment are 
restricting our ability to train and third, the Army has a 
strategy for addressing encroachment. It is a strategy of 
compliance with environmental laws and proved range management 
and seeking balanced application of environmental statutes.
    Turning to training, our units must train in the field and 
train often under conditions that replicate war fighting. Live 
training is an absolute requirement to maintaining readiness. 
Unlike some other professions, soldiers must occupy and move 
across terrain and when required, dig survival positions. To 
exercise these skills requires land and ranges.
    Modern Army weapons systems dictate the types of ranges and 
amount of land required. The land available to us already falls 
short of requirements to replicate battle spaces. As a result 
commanders must create and implement workarounds to train to 
standard. These workarounds are common and diminish the realism 
of training even before the effects of encroachment are felt.
    Simulations have served to help compensate for some 
shortfalls created by the absence and adherence to 
environmental restrictions but there is no substitute for live 
training.
    My second point concerns encroachment. The Army's training 
lands are now faced with the cumulative effects of over 30 
years of progressive encroachment. As the areas around our once 
remote installations becomes urbanized, commanders have had to 
reduce training because of noise, smoke and other environmental 
considerations.
    Our two primary concerns are the management of threatened 
and endangered species and the potential for increased 
regulations of munitions during live fire training. Providing 
habitats for threatened and endangered species takes away from 
usable maneuver space already constrained and forces us to 
alter our ways of training. As a result, training becomes 
fragmented making it difficult to train under realistic 
conditions in order to hone soldier skills.
    As we project into the future, regulations of munitions and 
the aspect of encroachment could seriously disrupt live fire 
training. The application of regulations could ultimately end 
live weapons training as we know it. Discontinuing live fire 
training at a major installation would have grave repercussions 
on our training readiness.
    The Army's encroachment strategy focuses on continuing to 
comply with the law while fulfilling our mandated 
responsibilities. In doing so, we spent more than $1 billion 
last year on environmental management. In the execution of our 
responsibilities, we employ hundreds of trained environmental 
professionals and we are exploring new technologies to lessen 
the impact of training on the environment.
    We are implementing an even more sophisticated approach 
called Sustainable Range Management. This approach draws 
together training, environmental, explosive safety and 
facilities perspectives. We would hope to see environmental 
statutes administered based on consistent, measurable and 
objective standards. We seek a predictable application of 
statutes to balance soldier readiness with the requirements to 
protect the environment.
    In closing, I would ask you to recognize the unique role of 
your Army in national security. Rigorous and live training is 
an absolute requirement to remain trained and ready. The 
readiness of your Army is being restricted by the cumulative 
effects of encroachment. We fully understand that compliance 
with the law and protection of the environment is an absolute 
requirement. Our strategy is to maintain a balance between 
training and protecting the environment.
    Thank you for affording me the opportunity to appear before 
you today concerning this important issue. I have provided a 
statement for the record.
    [The prepared statement of General Ellis follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.052
    
    [GRAPHIC] [TIFF OMITTED] T5041.053
    
    [GRAPHIC] [TIFF OMITTED] T5041.054
    
    [GRAPHIC] [TIFF OMITTED] T5041.055
    
    [GRAPHIC] [TIFF OMITTED] T5041.056
    
    [GRAPHIC] [TIFF OMITTED] T5041.057
    
    [GRAPHIC] [TIFF OMITTED] T5041.058
    
    [GRAPHIC] [TIFF OMITTED] T5041.059
    
    [GRAPHIC] [TIFF OMITTED] T5041.060
    
    [GRAPHIC] [TIFF OMITTED] T5041.061
    
    [GRAPHIC] [TIFF OMITTED] T5041.062
    
    [GRAPHIC] [TIFF OMITTED] T5041.063
    
    [GRAPHIC] [TIFF OMITTED] T5041.064
    
    [GRAPHIC] [TIFF OMITTED] T5041.065
    
    [GRAPHIC] [TIFF OMITTED] T5041.066
    
    [GRAPHIC] [TIFF OMITTED] T5041.067
    
    [GRAPHIC] [TIFF OMITTED] T5041.068
    
    [GRAPHIC] [TIFF OMITTED] T5041.069
    
    [GRAPHIC] [TIFF OMITTED] T5041.070
    
    [GRAPHIC] [TIFF OMITTED] T5041.071
    
    [GRAPHIC] [TIFF OMITTED] T5041.072
    
    [GRAPHIC] [TIFF OMITTED] T5041.073
    
    [GRAPHIC] [TIFF OMITTED] T5041.074
    
    [GRAPHIC] [TIFF OMITTED] T5041.075
    
    [GRAPHIC] [TIFF OMITTED] T5041.076
    
    [GRAPHIC] [TIFF OMITTED] T5041.077
    
    Mr. Burton. Thank you.
    I don't know how this happened with the staff but I am an 
Army man, I thought I would be introducing General Ellis but 
now they have me introducing a Marine. We had tough times when 
I was in the Army with the Marines. I won't tell you some of 
the things that were said, I am just going to introduce you. We 
have high regard and respect for every Marine. [Laughter.]
    Major General Edward Hanlon, Jr. is currently serving as 
the Commanding General, Marine Corps, Camp Pendleton, CA which 
is home to 90,000 service and family members. General Hanlon is 
also responsible for providing training support to over 40,000 
active duty and 26,000 reserve service members from all the 
services that train at Camp Pendleton each year.
    During his distinguished career of over 33 years, he served 
in key command and staff positions including a tour in Vietnam, 
Deputy Commander, Naval Striking and Support Forces, Southern 
Europe, and the Director of Expeditionary Warfare at the 
Pentagon.
    His personal decorations include Defense Superior Service 
Medal with oak leaf; Legion of Merit with two gold stars; 
Defense Meritorious Service Medal; Meritorious Service Medal; 
Navy Marine Corps Service Medal with Combat V and gold star; 
and the Combat Action Ribbon.
    General Hanlon I want to thank you for appearing here 
today. I hope you consider it an honor to have an Army man 
introduce you.
    General Hanlon. Thank you and indeed I do consider it an 
honor.
    Like my colleagues, I certainly appreciate the chance to be 
here this morning to talk to this committee.
    I am privileged to command Marine Corps Base Camp 
Pendleton, CA which is the Nation's premiere amphibious 
training base, 125,000 beautiful acres located along the 
southern California coastline.
    I am also here today with Brigadier General Jim Battaglini 
and he will speak at the later panel. Whereas I command the 
base, General Battaglini is the Deputy Commander of I Marine 
Expeditionary Force and can talk to you about some of the 
operational issues we face with encroachment.
    Based on my almost 33 months in command at Camp Pendleton 
supporting the Marines of I MEF who train there every day. I 
believe we have a problem. The problem is something we refer to 
as the conflict, a conflict between our military readiness or 
preparedness and what we refer to as encroachment.
    It has already been said by my distinguished colleagues but 
in the Marine Corps one of our central maxims is we train as we 
must fight. We must replicate or duplicate the modern 
battlefield with realistic, dynamic training and as General 
Ellis pointed out, training with live ammunition is essential.
    As Marines, we are a bit unique in that we train at sea, 
from the sea, on the land and in the air, using all elements of 
our Marine Air/Ground Task Force Combined Arms Team. We train 
for missions across the full spectrum from high intensity 
conflict such as Desert Storm all the way to humanitarian 
operations which have become so common place today.
    Camp Pendleton is a very busy place; we train over 360 days 
a year. About 45,000 training events go on there per year. That 
is about 130 a day. There is everything from squad patrolling 
exercises to brigade or regimental landing team amphibious 
exercises.
    My job as the base Commanding General is providing the 
environment for the Marines of I MEF to train, to provide to 
them the ranges, the training areas, the landing beaches and 
the air space they need to do their job.
    Encroachment can be defined many different ways but 
basically at Camp Pendleton we view it as pressure to curtail 
the military use of land, sea and air space in favor of 
nonmilitary uses. Pressure comes in many forms with 
urbanization I believe being the root problem. Urbanization 
leads to decreased tolerance for military noise, pressure on 
special use air space and commercial air needs, and increased 
demands for nonmilitary land use for regional infrastructure 
such as roads or an international airport which is a major 
issue in San Diego as the city of San Diego tries to come to 
grips with an international airport. They have run out of 
options and are looking at some of the military bases as 
possibly being a solution.
    Another aspect of encroachment is the unintended 
consequences of the well intentioned laws passed by the 
Congress. One that comes to mind for me is the application of 
the Endangered Species Act. At Camp Pendleton for years and 
years we have been exemplary stewards of the land and the 
natural resources you have entrusted to us.
    Today at Marine Corps Base Camp Pendleton we have some 17 
endangered species on our base. Back in 1977, there were 3 and 
in 1994, there were 10 and now that number has risen to 17. 
There are many other endangered species out there under duress. 
I personally feel there will be more coming down the line.
    Along with that is the issue of critical habitat 
designations which we believe are unnecessary in view of our 
stewardship record. We believe critical habitat at least at 
Camp Pendleton is incompatible with military land use and our 
mission. Finally, the application of the Endangered Species Act 
through litigation is something we see as a concern.
    I believe that solutions are possible. I believe we are 
capable of being able to train Marines and at the same time, 
take care of our environment. I would like all of you to know 
we have an active public outreach that is significant and 
substantial. We reach out to our local communities, to the 
regulatory agencies we deal with such as the Fish and Wildlife 
Service, the Corps of Engineers, the EPA and others and we have 
a very active and very successful dialog with the State of 
California. I would like to compliment Governor Davis, his 
cabinet and members of the legislature in Sacramento for the 
initiative they have taken over the last 2 years to reach out 
to all the services in California to help us work through some 
of the challenges we face in that State.
    I am here to ask for your assistance because I believe the 
Congress can help us. It is the Congress that passes the laws 
of this great Nation and it is the Congress that gives us our 
Title 10 responsibilities. When these raise conflicts, 
conflicts we cannot resolve through outreach, engagement or 
negotiation at my level, we must turn to the Congress for 
guidance and clarification. We are not seeking special 
treatment. We are simply asking for scrutiny of the laws that 
affect our military readiness, we are asking for clarification 
of the laws that impact our readiness and asking for 
accommodation of our military missions, policies, regulations 
and laws.
    Our job is to be ready to fight and win our Nation's 
battles. We cannot compromise or abrogate that responsibility. 
If we do not reach solutions, I believe we will have increased 
risk to combat readiness paid by our Marines.
    Chairman Hansen I certainly agree with your comment 100 
percent and that is that training saves lives.
    Thank you. That is all I have. I look forward to answering 
any questions you may have.
    [The prepared statement of General Hanlon follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.078
    
    [GRAPHIC] [TIFF OMITTED] T5041.079
    
    [GRAPHIC] [TIFF OMITTED] T5041.080
    
    [GRAPHIC] [TIFF OMITTED] T5041.081
    
    [GRAPHIC] [TIFF OMITTED] T5041.082
    
    [GRAPHIC] [TIFF OMITTED] T5041.083
    
    [GRAPHIC] [TIFF OMITTED] T5041.084
    
    [GRAPHIC] [TIFF OMITTED] T5041.085
    
    [GRAPHIC] [TIFF OMITTED] T5041.086
    
    [GRAPHIC] [TIFF OMITTED] T5041.087
    
    [GRAPHIC] [TIFF OMITTED] T5041.088
    
    [GRAPHIC] [TIFF OMITTED] T5041.089
    
    [GRAPHIC] [TIFF OMITTED] T5041.090
    
    [GRAPHIC] [TIFF OMITTED] T5041.091
    
    [GRAPHIC] [TIFF OMITTED] T5041.092
    
    [GRAPHIC] [TIFF OMITTED] T5041.093
    
    [GRAPHIC] [TIFF OMITTED] T5041.094
    
    [GRAPHIC] [TIFF OMITTED] T5041.095
    
    [GRAPHIC] [TIFF OMITTED] T5041.096
    
    [GRAPHIC] [TIFF OMITTED] T5041.097
    
    [GRAPHIC] [TIFF OMITTED] T5041.098
    
    [GRAPHIC] [TIFF OMITTED] T5041.099
    
    [GRAPHIC] [TIFF OMITTED] T5041.100
    
    [GRAPHIC] [TIFF OMITTED] T5041.101
    
    [GRAPHIC] [TIFF OMITTED] T5041.102
    
    Mr. Burton. In your statement, General Hanlon, you lost 
training locations to a variety of factors. I know there is a 
lot of endangered species there but somebody told me there is 
about 17 miles you have of ocean frontage for training and it 
has been restricted to 1 mile or so for amphibious landings?
    General Hanlon. You are right. We have 17 miles of 
coastline that runs from San Clemente to our border with 
Oceanside, of which about 2.25 miles are available for what we 
call landings.
    Mr. Burton. Is that adequate?
    General Hanlon. If we had year round access to those almost 
2.5 miles of beach, it would be adequate for what we are doing. 
The issue is because of seasonal restrictions to access to 
those beaches, we don't have year round access to the beaches.
    Mr. Burton. What do you mean seasonal restrictions?
    General Hanlon. Along our beach area there are a number of 
species, mainly birds that live along the beach area and 
particularly between March and September of every year they 
have a breeding season. During that time we are restricted in 
what we can do along those beaches.
    Mr. Burton. Is that 2\1/2\ mile stretch the only place they 
can breed?
    General Hanlon. No, sir but other parts were leased to the 
State of California years ago as part of a State park. Those 
2.5 miles we use, the birds breed there as they do along the 
entire 17 mile coastline.
    Mr. Burton. If you had amphibious landing training year 
round, the birds probably would move down the beach someplace 
else?
    General Hanlon. Perhaps so, yes.
    Mr. Burton. So you have to stop training for 2\1/2\ months 
because of the birds?
    General Hanlon. During that time we are in that restricted 
period, we go through a very modified procedure in terms of our 
amphibious landings. It is almost an administrative landing. We 
bring the troops ashore on the beach and immediately drive down 
certain designated roads or areas and go inland getting off 
that beach.
    Mr. Burton. But that is not adequate training?
    General Hanlon. No, sir, it is not.
    Mr. Burton. What about the young men and women who are 
training during that period who may have to go into active 
combat? Are they adequately trained?
    General Hanlon. That is an issue and that is one of the 
reasons I am here because I believe it is concern. Particularly 
since we have units at Camp Pendleton that train all year, we 
put out what we call Marine expeditionary units that go out 
with the fleets. There are two that are in training year around 
and use the beaches extensively.
    During the period of time, the March-September timeframe, 
their access to the beaches is definitely restricted and they 
have to do workarounds as far as training is concerned.
    Mr. Burton. This is March to September?
    General Hanlon. To September.
    Mr. Burton. About 6 months?
    General Hanlon. About 6 months.
    Mr. Burton. 6 months of the year you can't use that beach 
for active training?
    General Hanlon. I would answer that by saying during those 
6 months we have to modify how we use those beaches.
    Mr. Burton. You don't have to be political with me, it is 
not really adequate?
    General Hanlon. No, sir, it is not what we would like to 
do.
    Mr. Burton. If it comes to a choice between birds breeding 
and people surviving in combat because of lack of training, I 
think I would go for the people every time, the military 
personnel. We will submit what you just said to the Secretary 
of Defense and the President to point out that is something 
that should be addressed.
    Is this the only area on the West Coast where they can 
train for these things?
    General Hanlon. The only amphibious training base I am 
aware of on the West Coast is Camp Pendleton, CA.
    Mr. Burton. So for 6 months you have to do the work around 
because of the birds?
    General Hanlon. Yes, sir, correct.
    Mr. Burton. Did everybody get that? That is amazing. I hope 
the press is picking up on this. We ought to have every 
television camera in the country picking up this.
    General Jumper, what specific challenges does the Air Force 
face regarding air space acquisition? As currently proposed, 
how might the FAA's free flight program affect military 
operations?
    General Jumper. The plans that the FAA has to reconstruct 
the air space throughout the United States essentially will 
allow more point to point flights and limit the use of existing 
airways, do away essentially with the use of existing air ways.
    Mr. Burton. How will that affect your training?
    General Jumper. These point to point flights, if it is not 
properly coordinated with all the military services, will 
affect all our ranges, would essentially allow flights to go 
over or through our ranges.
    We do a good job today of coordinating with the FAA. You 
can see on charts during the times of peak air activity how the 
FAA vectors around all of our heavy use ranges. We do a fairly 
good job of coordinating on those things. On the weekends and 
times we are not using the ranges, you can see those airplanes 
go right through the ranges.
    Mr. Burton. Is there a restriction of training because of 
this?
    General Jumper. There could be.
    Mr. Burton. Is there danger added to the mix because you 
have these commercial flights going over these training areas?
    General Jumper. Yes, sir. We see that we will have altitude 
restrictions potentially and for this reason as this 
reconstruction continues, we need to do this in negotiation and 
consultation with the FAA so that the right rule sets can be 
put in place to accommodate our training. This is just getting 
under way but the potential for this to severely limit our 
training areas is very high, sir.
    Mr. Burton. It inhibits training which would endanger in 
combat our pilots and how about commercial aircraft? If I am 
flying across, are there commercial aircraft that might in some 
way be jeopardized?
    General Jumper. Again, this is just getting underway and I 
think through a process of negotiations, we can certainly make 
sure those kinds of dangers didn't happen. As it is currently 
proposed and without any negotiations with the military, the 
potential for those kinds of conflicts are certainly there.
    Mr. Burton. We will report this to the proper people to 
make sure we look into that as well?
    Mr. Clay.
    Mr. Clay. I would like to submit a statement of our ranking 
member.
    Mr. Burton. Yes. Mr. Delahunt also had a statement that we 
will also add to the record.
    [The prepared statements of Hon. Henry A. Waxman and Hon. 
William D. Delahunt follow:]

[GRAPHIC] [TIFF OMITTED] T5041.103

[GRAPHIC] [TIFF OMITTED] T5041.104

[GRAPHIC] [TIFF OMITTED] T5041.105

[GRAPHIC] [TIFF OMITTED] T5041.106

[GRAPHIC] [TIFF OMITTED] T5041.107

[GRAPHIC] [TIFF OMITTED] T5041.108

[GRAPHIC] [TIFF OMITTED] T5041.109

    Mr. Clay. Let me ask the entire panel I want to make sure I 
understand what you are not saying. None of you is saying the 
services should somehow be exempt from the Clean Air Act or the 
Clean Water Act and other major environmental protections, are 
you? No? OK.
    General Ellis, having a former installation in my 
congressional district, does the Army feel any responsibility 
to those communities when base closings occur? I see in your 
statement that you try hard to be good neighbors. Is there any 
effort or can the Army reach a final disposition on that 
property in St. Louis, MO? I don't know if you are aware of all 
the facts but I would like you to take a look at the 
circumstances there. I think it is quite extraordinary.
    You have a munitions plant in existence since 1944 that 
provided ammunition for World War II and the Korean conflict 
and the Southeast Asian conflict and some of the byproducts are 
still there. Is there a possibility for you to take a look at 
that situation?
    General Ellis. I certainly share your concerns about past 
contamination at any Army base. I will take back your question 
to the appropriate staff agency and we will get back to you. I 
am not familiar with the specifics of the case you are asking 
but I will take it to my counterpart and see if we can get you 
an answer.
    Mr. Clay. I hear you talk about urbanization. Does the 
military take a different approach in relationship to urban 
inner city installations as opposed to more rural or suburban 
installations? Is there a different approach the military takes 
with urban installations like the one I am referring to?
    General Ellis. I am not sure there is a different approach. 
We approach all our installations by complying with the 
applicable laws and regulations, be it Federal, State or local, 
so our approach would be the same.
    Mr. Clay. Let me ask you some questions relating to 
Congressman Delahunt's concerns over the Massachusetts military 
reservation. As I understand, the installation is located above 
a sole source aquifer for drinking water, correct?
    General Ellis. Correct.
    Mr. Clay. EPA found that continued training activities 
threatened to contaminate the drinking water for nearly 150,000 
permanent residents of Cape Code and over 400,000 seasonal 
residents, correct?
    General Ellis. Not exactly.
    Mr. Clay. Does the Army know how many of its other 
installations are located directly over or in close proximity 
to water aquifers similar to the Massachusetts military 
reservation?
    General Ellis. As I understand it at the Massachusetts 
Military Reservation, the groundwater is contaminated but not 
the drinking water. It may sound like I am splitting hairs but 
it is the groundwater contamination, not the drinking water.
    In response to are there other military installations that 
set on sole source aquifers, I will have to get back to you 
with that. I do not have that information available to me.
    Mr. Clay. I yield the balance of my time.
    Mr. Barr. I would like to extend my thanks to the panel for 
appearing here today and for the tremendous and lengthy 
distinguished service you have rendered to the United States. 
We very much appreciate that and are honored to have you here 
with us today.
    In addition to some of the matters we have touched on 
already, some of the matters the chairman discussed, one of the 
other issues that concerns us is the state of readiness of our 
fighting forces. Some of us recall last year there were a 
number of documents from the Army that I remember reading it 
was that 12 of the 20 schools training our soldiers in skills 
such as field artillery, infantry and aviation received the 
lowest readiness ratings and also in November 2000, the 
Pentagon rated two of the Army's 10 active divisions at the 
lowest readiness level.
    General Ellis, what can we do to improve this readiness 
situation both in the short term and the long term?
    General Ellis. In both of those cases, the readiness 
ratings were not necessarily directly related to training land 
and ranges. In the first case of the two divisions that were 
deemed not ready, it was primarily related to availability of 
personnel. We had no major shortfalls necessarily in training 
land availability.
    In reference to the most recent question concerning one of 
our divisions in terms of readiness, it was an issue of being 
able to redeploy back to home station in time to train and meet 
its wartime mission.
    The method we use for measuring readiness is readiness 
against our wartime mission. In the case of the latest 
division, it was deployed to the Balkans and in order for it to 
meet its wartime mission, it would have to disengage from the 
Balkans, redeploy to home station and then prepare to go to the 
war fight. So it was an issue of availability of time in that 
case.
    Mr. Barr. Is it your position there are no improvements 
that can be made or that need be made with regard to the 
readiness of our troops?
    General Ellis. I think there are always improvements that 
can be made. We have some shortfalls in readiness in other 
areas which we have addressed before the House Committee 
previously. we have some shortfalls. Those primarily fall in 
the category of shortfall in resources in some cases in terms 
of dollars, some shortfalls in ammunition in some cases, but 
most of those are being addressed.
    Mr. Barr. Do you have copies of the documents to which I 
refer? They were leaked Army documents that indicated 12 of the 
20 schools training our soldiers in skills such as field 
artillery, infantry and aviation received the lowest readiness 
ratings?
    General Ellis. I do not have copies. I recall the article 
and that referred primarily to our training and doctrine 
command schools which we call a part of our base generating 
force. That is the force that prepares our soldiers for 
training. In most cases, those shortfalls were tied directly to 
dollar resources in many cases and the other was shortage of 
personnel.
    Mr. Barr. Will those be addressed in the budget that the 
President is submitting and the Secretary of Defense will be 
submitting?
    General Ellis. It will be.
    Mr. Barr. Admiral Fallon, what challenges does the Marine 
Mammal Protection Act present to Navy training and testing? Do 
you find that act is ambiguous?
    Admiral Fallon. This particular act presents some very 
significant challenges for a couple of reasons. One because it 
is applicable worldwide and primarily because the definition of 
the term harassment has been understood at least by most of the 
interpretations that are applied against us when these issues 
go before various courts and by the protection agencies as any 
disturbance of behavior.
    Mr. Barr. Any disturbance of the behavior of the fish? How 
do they figure that out? It is difficult enough with humans?
    Admiral Fallon. I don't know. That is a real challenge, I 
would think but something as simple as the sea mammal for 
example, picks up a sound and if he is eating, he stops.
    Mr. Barr. How do you know if he or she picks up the sound?
    Admiral Fallon. That is a good question.
    Mr. Barr. Are you being drawn into court on these issues?
    Admiral Fallon. Yes, sir. The way this typically works is 
various organizations will file lawsuits to restrict our 
training or some aspect of our training in a particular 
exercise. The ruling by the presiding official is usually taken 
back to a review of the legislation and interpretation of 
whether harassment has taken place or might take place.
    In terms of a concrete example, both the Marine Mammal 
Protection Act and the Endangered Species Act apply to turtles. 
So on the Atlantic Coast in Vieques where we have had lots of 
challenges to our training, the Navy has managed through good 
stewardship with the environment to introduce more than 10,000 
hatching turtles to this island and we understand there has 
been a 70 percent success rate in these animals staying alive.
    In a recent exercise, we were restricted to one, the term 
is take, but one fatality to a turtle as the threshold of 
continuing that operation. So if two of these turtles were 
noted as being deceased in the vicinity, that would constitute 
grounds to terminate the exercise. It is this type of 
interpretation of the regulations that is creating a challenge 
for us.
    Mr. Barr. I know it is hard to argue this stuff with a 
straight face because it is so ludicrous.
    Admiral Fallon. We enter consultations with the various 
regulatory agencies as prescribed by the various statutes. We 
do this in good faith. It is a process by which we engage and 
exchange information but typically what results is a formal 
declaration or letter sent by the agency to the Navy or the 
particular agency of the Navy involved in the training. 
Increasingly these documents will contain very restrictive 
language regarding activities that frankly are operational 
matters.
    For example, in an exercise last year in the Atlantic in 
July 2000, we received a letter in which we were restricted to 
only 30 percent of our ordnance delivery operations at night 
because the feeling was that the night operations might be 
disruptive to some kind of mammal.
    Mr. Barr. It might wake them up?
    Admiral Fallon. Further restriction, only 10 percent of the 
surface fire support, the 5 inch guns from our cruisers and 
destroyers might be fired at night for a similar reason. These 
become a matter of record and the cumulative effect of all 
these notes and restrictions to the consultations become the 
groundwork for the next consultations. As we go into each of 
these engagements with the agencies, we have a higher and 
higher stack of restrictions with which we are trying to 
comply. It is very challenging.
    Let me show you how this becomes an almost endless stream 
of pain for our operational commanders. In Vieques because of 
the disruptions in the last 2 years to our ability to train, we 
have had to do workarounds. Many of them have been done on 
short notice. The consultation process is very lengthy quite 
often, so we end up scrambling with last minute patchwork 
attempts to put together something and faced with a last minute 
decision, our commanders will often accept what I consider 
sometimes very onerous restrictions on their operations because 
they are out of time, they need to get the training done and 
that is a way to get the nod from the presiding jurisdiction to 
do the operation.
    This is not a matter of something in the future. It is 
something we are dealing with right now every day around the 
world.
    Mr. Barr. Thank you.
    Mr. Burton. The gentlelady from Hawaii is recognized for 5 
minutes.
    Mrs. Mink. I would like to ask permission to submit a 
statement on various issues covered in the testimony in view of 
the fact that we have a vote on the floor.
    [The prepared statement of Hon. Patsy T. Mink follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.110
    
    [GRAPHIC] [TIFF OMITTED] T5041.111
    
    Mrs. Mink. General Ellis, in your testimony you referenced 
prevention of use of the range since 1988 at Pohakuloa. I would 
like to ask if you could provide the committee with a fuller 
explanation of the circumstances of this issue was raised and 
whether that range is still not in use. My understanding is it 
is.
    The other question you raised has to do with the current 
controversy on the Island of Oahu at Makua Valley, a very live 
issue and one that presents concerns on both sides.
    It is difficult in a hearing like this because it puts 
those of us who question a particular training activity as 
though we were against the preparedness of our military. Of 
course that is not true. There are in many cases circumstances 
that require the military and use of these lands to pay 
particular attention to the cultural values that exist. That is 
the problem at Makua. My understanding is alternate training 
has occurred at Pohakuloa while Makua has been closed.
    I have a council resolution adopted by the Honolulu City 
Council in 1999 in which they point out that the Army has 
control over 4,000 acres, 3,000 of which are ceded lands. Ceded 
lands probably has no meaning for you but for the people in 
Hawaii that has tremendous significance. These were lands taken 
from the crown at the time of the overthrow of the monarchy and 
particular responsibilities to revert back to the Native 
Hawaiian community. It is over those 3,000 acres of ceded land 
that the Native Hawaiians pay particular attention.
    The live fire training has occurred on this property for 
many years. In the Makua Reservation are dozens of endangered 
species. The Hawaiian muck seal comes on its shore as well as 
the threatened green turtle and many others. It has sacred 
Hawaiian religious sites and over 150 archeological features. 
So it is not an idle issue over which concerns are being 
expressed by the Native Hawaiian community.
    Your reference to the fact that the Army has been 
meticulous in range management is something that needs to be 
taken into account. We want to make sure that where there is 
live fire, there is range management but as this resolution 
points out, 270 fires have occurred at Makua since 1990, only 
less than a decade.
    These are the concerns that have to be weighed against your 
general statement that concerns for endangered species by 
itself obstructs contests which have been permitted by the 
Congress. I take great deference to that statement.
    I would ask unanimous consent that this resolution be 
placed in the record at this point.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.112
    
    [GRAPHIC] [TIFF OMITTED] T5041.113
    
    [GRAPHIC] [TIFF OMITTED] T5041.114
    
    [GRAPHIC] [TIFF OMITTED] T5041.115
    
    Mrs. Mink. Also, on the question of Makua Valley, I have a 
letter from the Army in 1999 in which they explicitly say 
``Nevertheless as part of the settlement, the Army has chosen 
to do an environmental impact statement of its activities at 
Makua.'' I would like to have this inserted at this point also.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.116
    
    [GRAPHIC] [TIFF OMITTED] T5041.117
    
    Mrs. Mink. The only remaining issue with regard to Makua 
where firing has been suspended since 1998 is whether an 
environmental impact statement is to be done. Despite the call 
of the council and others for an EIS, I don't understand why 
one has not been done. The court is to make a decision 
unfortunately on this matter at the end of May. Why should it 
have to go to a court if the Army acknowledged it would do so?
    I think a lengthy response to my general statement is in 
order. I would invite the Army to submit that for the record.
    In my submission of other comments, I would also say I have 
comments about the Navy as well.
    Mr. Burton. Mr. Shays, we have about 8 minutes; do you want 
to take your 5 quickly?
    Mr. Shays. I would like take my time and yield to Mr. 
Hansen.
    Mr. Hansen. As I listen to this testimony regarding the 
problems of the Endangered Species Act, I would appreciate some 
input from the people here because we have now put together a 
working group on the Resource Committee composed of five 
Republicans and five Democrats.
    This bill was passed in 1973 and if you read the original 
intent, it has gone way beyond that. It was never intended to 
go into subspecies, never intended to get into botany. It was 
always intended to be and always referred to the grizzly bear 
and the bald eagle. As we see now, it is an encroachment not 
only on you but in other areas.
    This should have been reauthorized in 1992 and it wasn't. 
We are hoping this equally divided committee can come up with 
some good criteria. We have meant to ask the military if you 
feel you could, we would love to have your input as to how you 
think it would work in regard to your work.
    Frankly, as I see it, the two things I would like to look 
at is the economy of the area and military, plus the idea of 
listing is way too easy and delisting way to hard. There are 
two things I think we should get into. That is some of the 
general guidance we have given the new working group.
    If you feel you could give us some information on how it 
would best serve you folks, that would be fine. We feel it has 
gone way beyond the original intent and it is now used as a 
harassing took by many organizations. If you look at the 
lawsuits filed by the extreme environmental groups, almost 85 
percent regard Endangered Species Act. Somehow this has to be 
curtailed and get to the original intent of the act.
    I thank you for allowing me to be here today.
    Mr. Shays. Thank you.
    Admiral Fallon, I am very concerned about Vieques. I have 
visited there and I simply don't know where our Marine pilots, 
our Marines and our Navy practice. I would like to know if we 
lose Vieques where do we go?
    Admiral Fallon. The simple answer is we don't have an 
alternative to several of the key aspects of training conducted 
only on Vieques. We got ourselves in this position through a 
long series of realities of encroachment, population growth on 
the East Coast of the United States to the point where we had 
gotten to Vieques as the sole spot to be able to do several 
critical competencies. There is no place. We have been looking.
    Mr. Shays. We have 33 live ammunition areas but you need to 
be able to coordinate the activity of the Marines, the pilots 
and the Navy as well, correct?
    Admiral Fallon. There are really three critical pieces that 
cannot be done today at other sites. One is the surface fire 
support, to have a safe range where you can fire the 5 inch 
guns from cruisers and destroyers. Second is the tactical 
employment of air power. As General Jumper indicated, 
increasing air space restrictions even in the west where our 
premiere western range at Fallon, NV inaccessible to East 
Coast-based aircraft carriers is too far away, has air space 
cap restrictions on it a good portion of time because of FAA 
requirements for commercial traffic overhead. The only place 
left was Vieques and without it, we don't have an alternate 
site.
    Mr. Shays. We don't want to hold this panel while we vote. 
I have other questions and I will hand them to you. I would 
like to make sure the full committee gets a response to them 
and the National Security Subcommittee. I would like the 
Marines to answer them as well.
    Mr. Burton. We have a vote on the floor, so we will adjourn 
until the vote is finished. We will reconvene as soon as the 
last vote.
    [Recess.]
    Mr. Burton. Mr. Schrock.
    Mr. Schrock. I have heard this stuff and I sit here and 
seethe when I hear it. When the yellow bellied snail darter 
from some foreign country is more important than one of our 
Marines landing on Pendleton's beach for training that could 
save his life, I think something is wrong and common sense has 
left the equation. We need to get it back in there.
    I would like to ask Admiral Fallon and General Hanlon, what 
can we do? Obviously there is a bill somewhere that is 
conflicted. The Fish and Wildlife people are interpreting it 
one way because of what we did and the military is trying to 
adhere to what we want them to do. It needs to be deconflicted 
so we don't have these problems because it will not get better 
until we do.
    What do you want us to do? The ball is in our court. We 
need to do something. We created this mess and need to get it 
cleaned up.
    Admiral Fallon. Of particular help would be anything that 
would help to add consistency and shorten the time lines in the 
interpretation of the Endangered Species Act, particularly the 
understanding that certain actions may affect behavior of the 
various species. That would be a concrete example.
    The other in the Marine Mammal Protection Act, the term 
harassment is the key issue that is widely interpreted.
    Mr. Schrock. What is the definition of harassment in that 
case?
    Admiral Fallon. That question comes up again and again in 
the courts and other regulatory bodies. That is one if you 
could help us in that area to more narrowly define what this 
means, it would help.
    Mr. Schrock. My guess is if two birds are doing their thing 
on the beach at Pendleton and a tank rolls up, they are going 
to move. I think we are hampering the operations.
    Admiral Fallon. There is one other aspect. We heard from 
every one of the general officers today that we really do make 
a tremendous effort to take care of the environment. We are 
Americans, we live here, our families live here and are 
concerned about this. We go to extraordinary lengths and spend 
large sums of money to ensure we take care of the environment.
    Many times, we are not getting the appropriate credit. When 
we do things to take care of certain species, as General Hanlon 
mentioned in California, in Vieques and Coronado and San 
Clemente Island, we go to extraordinary lengths. We have on the 
West Coast at Camp Pendleton a 6-month time where we are 
severely restricted, San Clemente Island our closest 
counterpart to Vieques on the Pacific Coast has a 6-month 
period in which we cannot conduct activity, same kind of 6 
month rule applies because of certain shore birds at Coronado 
on the Southern Coast, and we would like to get some credit for 
doing these things in terms of relief if you would in the act.
    The example of Vieques, thousands of turtles we have 
managed to propagate back into the environment through these 
conservation zones exist on the island but in the event more 
than one meets an untimely fate, then we are penalized with 
immediate cessation of the training activity.
    Another example is we have a very serious operational 
challenge in that there are some nations that have submarines 
that operate very quietly and are extremely difficult for us to 
find. There is a technology known as low frequency active sonar 
that has a tremendous amount of promise we feel in this area. 
We have been 5 years in an extended attempt to get this 
technology to the point where we can actually use it at sea.
    There is a seeming unending stream of objections to the use 
of this particular sonar. We have gone to extraordinary lengths 
with lots of scientific data in an attempt to show this does 
not cause physical damage to mammals and other creatures in the 
sea. We are yet to be able to use this thing. It may be 
absolutely crucial to readiness if we have to go against the 
current generation of undersea craft. Those are some examples 
of areas where you could help.
    General Hanlon. I would like to dovetail Admiral Fallon's 
comments. I would like to say that I was delighted to hear 
Chairman Hansen's suggestion about the working group that would 
take a look at the Endangered Species Act in terms of 
reauthorization and see how we might make it better.
    I think if I had to hone down my concerns to the real nub, 
what has happened is when you take a look at the Endangered 
Species Act when it was passed and how it has been interpreted 
to the present and responsibilities you give us in Title 10, it 
has come to a conflict, one that we are unable to break the log 
jam at our level. I think it comes back to the Congress to ask 
you to clarify the intent, specifically what it is the act is 
supposed to do and what it is you want us to do as far as Title 
10 responsibilities and our ability to train the force.
    I think this working group from what he said is a step in 
the right direction and I applaud that.
    Mr. Burton. The sonar you talked about, I have watched some 
television news shows and they say beached whales and other 
mammals are being beached because of some of the experimental 
technology being used. Is there any validity to that at all?
    Admiral Fallon. You are probably referring to the incident 
last year in the Bahamas in the New Providence Channel where 
there were several whales, 9 or 11, that were stranded on 
beaches in the vicinity of that channel. There was naval 
activity ongoing at the time.
    The activity was going on that might have been pertinent to 
that and I think there was some cause and effect in this 
regard. It was not anything experimental at all, they were ship 
sonars that had been in use for decades.
    Mr. Burton. So it wasn't the new technology?
    Admiral Fallon. The new technology is a different kind of 
lower frequency sonar that has an ability for better detection 
properties against submerged objects.
    Mr. Burton. We don't know how that would affect sea 
mammals?
    Admiral Fallon. Yes, we have done many, many months and 
years of studies and we have concluded or the scientists have 
concluded this particular device does not cause damage to the 
creatures, the mammals.
    Mr. Burton. If you could send us some information, we will 
put that with our package and send it on to the Secretary of 
Defense as well as the President.
    Under the President's emergency powers, does he have the 
ability to suspend any part of the Endangered Species Act if it 
would endanger our national security or training of the 
military?
    Admiral Fallon. I don't know that.
    Mr. Burton. I would like to have staff check on that. In 
addition to correcting some deficiencies in the act, it might 
be advisable to also find out if the President has the ability 
through regulation or through suspension because of the defense 
needs of the country to suspend parts of it for training.
    General Hanlon. I am not an expert on this by any stretch 
of the imagination of a lawyer but I did ask my staff a similar 
question early on in my tenure at Camp Pendleton. The response 
I got as I recall is that in national emergencies, in dire 
national need, the President could probably do that for a short 
period of time, like all out war, something of that sort. The 
issue there is that is not what we deal with day to day. To the 
best of my knowledge, it has never been done.
    Mr. Burton. We will look into that and also look into the 
Endangered Species Act.
    Mr. Ose.
    Mr. Ose. I want to make sure I understand from General 
Hanlon the point at which your operations will hit the wall 
relative to encroachment? There has to be some point at which 
you cannot operate beyond. How close to that are you?
    General Hanlon. I guess I would try to answer that this 
way. When you use the term hitting the wall, it is like the 
marathon runner who at the 22 mile mark suddenly runs out of 
steam or stops. I would change that analogy and say it is more 
like the long distance runner who keeps running and every time 
he goes around the bend, there is more of an uphill and it 
becomes more and more difficult to run and progress. That is 
the issue we are dealing with today.
    I don't know you can reach out and say there is a sudden 
wall where everything suddenly stops but I will tell you that 
every day, every month, every year it gets more difficult to 
train. The point I make to the leadership in the Marine Corps 
is that one of the concerns I really have as I have been 
privileged to command at Pendleton is we are raising an entire 
generation of young officers and NCOs now dealing with 
workarounds.
    I remember when I was a battery commander in the 11th 
Marine Regiment at Camp Pendleton in the early 1980's, we could 
take out our howitzers, dig them in, bring in our engineer 
equipment, our bulldozers to dig berms, things that training 
people like you would do in combat. We cannot do that today.
    You tell the troops if you were in combat what you would do 
is dig this, dig that, bring bulldozers in and these are 
workarounds. These are becoming routine for us to do there and 
I think the lessons learned from that are in the long run very, 
very dangerous. That concerns me. As the guy responsible for 
providing a training environment for I MEF, this is why I bring 
it to your attention because I think we need to do something 
about that.
    Mr. Ose. I did appreciate reading your written statement. 
Thank you for the comments.
    Mr. Burton. Let me ask the same to all the others in 
particular the Army because when I was in the Army we went 
through maneuvers. Do you have constraints upon you as well as 
when you have to dig in and bring out howitzers and that sort 
of thing?
    General Ellis. Absolutely. We call them workarounds also. 
Instead of digging the foxhole, you would take engineer tape 
and you mark the area.
    Mr. Burton. Instead of digging a foxhole, you have to put a 
tape around and that is where the hole would be?
    General Ellis. We use engineer tape as a workaround and you 
would lay out the area.
    Mr. Burton. You mean to tell me those guys don't have to 
dig a hole like I did?
    General Ellis. In many cases, depending if there are 
environmental constraints.
    Mr. Burton. With that little shovel we had in our back 
pack?
    General Ellis. You don't do that anymore.
    Mr. Burton. What do they do when they go into combat and 
you hand them that shovel, do they say where is the tape?
    General Ellis. They could do that. That would be an example 
of a workaround.
    Mr. Burton. That is insane.
    General Ellis. There are numerous workarounds. There are 
others where there are issues during the mating season where we 
are required to stay on trails or paths because of disturbing 
habitat.
    Mr. Burton. So you cannot go out in a junglelike setting 
where you would actually be in combat?
    General Ellis. That area you must put off limits.
    General Jumper. I would say talking about where is the 
wall, I think another way to put it might be that the wall is 
just around the corner and we don't know where it is. We spend 
a lot of time trying to anticipate that thing that is going to 
close the final door. You wake up one morning at Nellis Air 
Force Base and there is a housing development you failed to 
anticipate being erected off the end of the runway and all of a 
sudden, you don't have the routes you need to get to the 
ranges. It is closed off for one reason or another because you 
failed to anticipate it or a piece of legislation to do with 
national parks that nobody thinks has to do with ranges but are 
in close enough proximity to ranges that legislation now has to 
do with the way you conduct normal training activity.
    It is those sort of things we live in fear of every day 
that you didn't properly anticipate or didn't have a chance to 
coordinate that loom large in our lives every day. So it is 
sort of creeping. It is uphill but I would suggest around one 
of these corners is a wall that we might come against we didn't 
anticipate properly.
    Admiral Fallon. We have a good chance of finding this wall 
in a very ugly way some day when we end up in a situation where 
we have people seriously hurt or who lose their lives in some 
type of military operation. There will be the inevitable finger 
pointing and how did this happen. We walk this dog back and 
find out we did the best we could here and there and given this 
and that restriction and that circumstances, it is the small 
steps, some seemingly insignificant. It is the issue we face 
every day--don't do it here, there has to be some other place 
to do it, here, there, everywhere, so we are like nomads 
looking for the solution.
    Reality today in aviation training, I think our strike 
leaders, our mission commanders are more focused in my opinion 
often on doing the administrative work of getting from one 
place to another so they can safely execute the mission given 
the myriad of restrictions with which they have to deal rather 
than sitting down and taking a looking at the problem and the 
optimal tactical or operational solution of that problem.
    The more that we get into that mode of operation, the more 
dangerous the path is going to be for our people in the future. 
I think it is insidious. Young people who never had the 
opportunity to do the extensive live fire training that we had 
to do, I think we run the risk of putting people in danger. 
That is probably the way things will go.
    Mr. Burton. I hope the Joint Chiefs of Staff express as 
clearly to the Secretary of Defense and the President the 
problems as you have. We will make sure this information gets 
to the proper sources.
    Ms. Davis.
    Ms. Davis. General Jumper, the example you used of the 
young captain, now lieutenant colonel who performed the same 
maneuver he learned in training, could he have performed that 
same maneuver if he had learned that training on simulation as 
opposed to actually doing it?
    General Jumper. The issue of simulation is one that we pay 
quite a bit of attention. We do quite a bit of simulation today 
but especially in the case I cited of air to air combat, there 
is no way you can sit in a simulator and appreciate the G 
forces and the physical stress on your body in a prolonged 
aerial engagement.
    No is there any way that you properly simulate all those 
frictions that go along in a real situation, like there is 
always a bad piece of communication, always having to sort out 
the good information from the bad. Simulations tend to be a bit 
more ideal and you don't get into the real frictions of war 
until you are out there in the real environment.
    Then the more we bring on these long range weapons, and 
there is a new series of joint weapons that are really missiles 
that fly out for hundreds of miles, it is difficult to train 
for those. We will train for those mostly in simulations but 
they are also going to require increasing amount of air spaces 
to go up and verify the results of your simulations. It makes 
the training ranges even more important because you don't get 
to drop these very expensive weapons in training, you do it in 
simulation and then the one or two times you get to do it for 
real, you are verifying all you learned. It makes the ranges 
more important.
    I think we have a good balance of simulation right now, we 
are doing a lot more distributed simulation between and among 
units, taking a lesson from the Army who does it very well and 
I think we will continue but it doesn't obviate the need for 
the kind of training we talked about today.
    Ms. Davis. Are there any bases or ranges right now that 
come to mind that could be critically affected by the 
restriction of the air space?
    General Jumper. There are none we are not working on very 
hard. All of them could be but we think we have done a better 
job of anticipating these sorts of resource management issues 
and other potential restrictions that we are trying to stay 
ahead of. I can't tell you there is a disaster waiting to 
happen. All of them are potential disasters if we don't stay 
one step ahead. That is working with all the local 
organizations and the concerned citizens.
    For instance, in the Idaho area this past week in one of 
the places on the range we have been negotiating for years to 
put some sensing devices there to do threat simulations and 
while they were doing excavation for this antenna, they found 
Indian artifacts. We immediately submitted them through the 
appropriate channels for proper consideration and there will be 
a 6-month delay before we can determine what our courses of 
action are that will be able to protect what will now be an 
artifact area.
    Those sorts of things I think we will get through 
eventually but it is now another 6 month delay on top of an 
appreciable delay working out this problem in Idaho. That is an 
example.
    Ms. Davis. Is there anything we can do to ensure that air 
combat fighters and bombers continue to get the training they 
need?
    General Jumper. I would suggest two things. One is the 
subject of this committee today, communication. You have given 
us the opportunity to talk about these things, you opened up 
this subject and I think that is critically important.
    The subject of legislation we talked about earlier, the 
ability for us to be able to coordinate legislation with 
potential impact I think is important and probably the best 
tool we have.
    If there is a way to consider from a policy point of view 
these very valuable ranges we have that give us the combat 
capability we have today, if there is a way to articulate the 
conservation need in terms of we will do the best we can to 
comply with the laws in these particular places, but maybe with 
due consideration that their prime responsibility in these 
areas is to train our people to go to combat. If there is a way 
we could do that, I think it would be helpful to our cause.
    Mr. Ose. One of the things General Jumper touched on that 
is a nuance here that I didn't realize until I read the 
statements last night was the manner in which we are conducting 
or preparing to conduct war has changed from a set piece kind 
of engagement where we are relatively close to the opposition 
to one where we are further back, stand off and the range of 
the weaponry is much longer.
    What we are confronted with is our training bases are 
designed on the historical norm of a set piece battle with 
relatively close proximity but the manner in which our 
technology now allows us to conduct warfare has taken that 
distance, that closeness to this kind of thing. So we are 
confronted with a situation not only on the environmental side, 
but how do we train for standoff battle when our training 
facilities are all set piece, close proximity?
    Mr. Burton. Mr. Barr.
    Mr. Barr. General Hanlon, we have MAG Unit 42 in our 
district at Naval Air Station Atlanta that share the runway and 
some facilities jointly with the Air Force at Dobbins. I do 
hear from your folks there they are concerned about not having 
sufficient flying time and sufficient training.
    This doesn't have anything directly to do with the recent 
problem with the close air support accident in Kuwait a few 
years ago but is that the sort of thing in your view could be 
avoided, that sort of accident with better training, more 
predeployment exercises with live fire?
    General Hanlon. When I was listening to Admiral Fallon 
earlier answer the question about Vieques and the training, put 
in the perspective of the Marine Corps, the reason a facility 
like Vieques is so important is it is an environment we can 
bring all the aspects that Marines could possibly use in 
combat, whether close air support, naval surface fire support, 
artillery, weapons, bringing them together at the same time as 
opposed to separate ranges. You can see the cumulative effect 
of all these combined arms on a target at one time and to 
understand timing considerations that go with that because 
timing is crucial.
    One of the other things you deal with is the issue of 
fratricide. The fact is how do you time things in such a way so 
you ensure the safety of not only your own personnel but other 
collateral damage you don't want to happen. That is one of the 
reasons you do this training to get that timing and get that 
sequencing and coordination and command and control together.
    Mr. Barr. Bring us up to date on litigation at Camp 
Pendleton with something called the California gnatcatcher. 
What is the status of that?
    General Hanlon. One thing I have learned about in the last 
3 years are birds. The gnatcatcher is a small species of bird 
that is unique to southern California, a particular species of 
that bird the southern California or coastal California 
gnatcatcher that has been identified as an endangered species. 
That happens to enjoy using coastal sage where it likes to 
live. At Camp Pendleton we have a lot of coastal sage, about 
50,000 acres as a matter of fact.
    The decision was made to declare it an endangered species 
not just at Camp Pendleton but throughout the southern 
California area. The Fish and Wildlife Service was going to 
declare a large area as critical habitat for the gnatcatcher. 
Fortunately, we were able to engage with Fish and Wildlife and 
get excluded from that particular critical habitat. We have 612 
breeding pair. We have people that go out and find them. Each 
one, using GPS, we find each nesting pair, what coastal sage 
they are in and we locate it and on a map put a 300 foot 
barrier or circle around that nest to make sure our Marines 
don't go in there and disturb it.
    To the best of our knowledge there is about 8,000 acres 
that are affected by those 612 pair. What really concerned us 
was the original declaration of critical habitat was going to 
declare 50,000 acres on Camp Pendleton, just extraordinary in 
my mind. If there was only 8,000 acres being used by the birds, 
why would you use 50,000 acres. There were a lot of reasons but 
not the least of which was of budgetary constraints, it was 
easier to just do broader areas. To their credit, we were 
excluded.
    What happened is other folks affected by that designation 
of critical habitat, some developers and other communities, 
took umbrage with the fact that we were excluded. Camp 
Pendleton, the Federal agency, the Marine Corps, was excluded 
and they have now said they are going to sue the Fish and 
Wildlife Service saying they didn't think that was fair. That 
is in the beginning stages of litigation and I am not exactly 
sure where it is in the court system.
    Mr. Barr. So when your Marines go out on an exercise, they 
have to carry with them some sort of map that shows where these 
bird nesting areas are and they can't trespass on those?
    General Hanlon. We do.
    Mr. Barr. If they go into a real situation overseas 
somewhere, are they going to go like this rather than take a 
straight line somewhere?
    General Hanlon. No, sir, they are not. Company commanders 
and battalion commanders, squad leaders, platoon leaders, one 
of the things they are taught when they come is they go through 
a course where we show them exactly where the various areas are 
and what they can and cannot do. We talked about workarounds 
earlier.
    We have one area called DZ Tank Park a very famous place on 
Camp Pendleton that for years has been used for mechanized 
units to train, tanks, AAVs, light armored vehicles and what 
have you. It was good because you could maneuver over a large 
area. That has been severely restricted because of what we call 
the fairy shrimp located along that area. We have had to 
confine our units to the roads.
    Mr. Barr. A what?
    General Hanlon. A fairy shrimp, a small animal that lies 
dormant until the rainy season comes. They lie in what we call 
mud puddles but out there they call them vernal pools. During 
the rainy season in California they come alive. As a result, 
the units in that area have to stay on roads. Again, this is 
one of the workarounds. You don't want your Marines learning 
when they go through an area they have to stick to a road 
because that is not the way they do it in combat.
    Mr. Barr. Thank you.
    Mr. Burton. Is this the only place these birds nest?
    General Hanlon. The gnatcatcher? No, the gnatcatcher has a 
range throughout southern California. It is in Orange and San 
Diego Counties.
    Mr. Burton. Do they stop at the Mexican border or go south 
below the Mexican border?
    General Hanlon. My understanding is they are also located 
in Baja, south of the border.
    Mr. Burton. If you conducted exercises that would upset 
these birds, they probably would move a little further south, 
right?
    General Hanlon. I am sure they would move yes, sir.
    Mr. Burton. We had a problem like this with the spotted owl 
and they stopped something like 40,000 acres of logging and 
said the spotted owl couldn't live anyplace except in these 
trees. After they stopped the logging and put about 5,000 or 
6,000 people out of work, the spotted owls were nesting behind 
billboards, on top of light poles and everything else. Some of 
this just sounds goofy to me.
    The birds can move south. They don't stop at the border and 
there are places where they go down there in the Baja where 
there is no military training and yet you do workarounds? In 
the Army, you take tape and make circles showing this is a 
foxhole so you don't dig into the ground and disturb the worms 
I suppose. What nonsense.
    Who is next? Mrs. Maloney?
    Mrs. Maloney. They wanted to take 50,000 acres in Camp 
Pendleton?
    General Hanlon. Yes.
    Mrs. Maloney. Condemn it or what?
    General Hanlon. No, declare it as critical habitat, an area 
which if we were going to use that area for any kind of 
military training, we could not do that without consultation 
with the Fish and Wildlife Service. That is what critical 
habitat means.
    Mrs. Maloney. You appealed this decision?
    General Hanlon. Yes.
    Mrs. Maloney. And you got it changed. What would that have 
done to you if you couldn't have 50,000 acres?
    General Hanlon. The cumulative effect of all the critical 
habitat at Camp Pendleton, not just the gnatcatcher but others 
as well, is about 70,000 acres. The base is 125,000 acres. So 
we were talking potentially 70,000 of 125,000 acres being 
declared as critical habitat.
    That means before a Marine unit can go in there and train, 
you have to consult. Consultation can go anywhere from 90 days 
to a year depending how large and complex the evolution is 
going to be. What happens is it takes the spontaneity and the 
flexibility that a battalion commander or regimental commander 
or platoon commander would want to have.
    Mrs. Maloney. You basically couldn't use the property in 
the traditional way it had to be totally changed but you got it 
back. It is 50,000 acres.
    General Hanlon. The Fish and Wildlife Service agreed to 
exclude us and not declare that 50,000 acres as critical 
habitat because we engaged with them and said this would be 
unsatisfactory.
    Mrs. Maloney. You mentioned many private property owners 
were very upset that you were able to negotiate for yourselves 
but not for them. What about the private property owners, what 
recourse do they have? Is there a way to appeal the decision or 
do they just have to go into court, with Fish and Wildlife?
    General Hanlon. As I understand, the folks concerned about 
it were some of the larger landowners and developers in Orange 
County who were concerned we were excluded. Through their 
attorneys they have put together a lawsuit against the Fish and 
Wildlife Service for excluding us and not excluding them. I 
don't know where that is right now.
    Mr. Burton. Mr. Shays.
    Mr. Shays. There clearly needs to be a balance between the 
first need, national defense and ways you can accommodate the 
training facilities and still get the job done. General Ellis, 
you are nodding more than others, thank you. For the record, 
the answer is yes and the question is balance.
    There are some absurdities which we can laugh and make 
jokes about. I think an honest dialog about this is absolutely 
imperative. We have sadly a record within the military of 
chemicals being misused, thrown on property. Isn't it true we 
still have sites around the country that have necessary 
chemical cleanups?
    General Ellis. I can't specifically answer that question. I 
am sure there probably are. Most of those issues are worked at 
the local level with the commander.
    Mr. Shays. The obvious answer is we have the New London 
submarine base that has some chemical challenges, military 
bases, Army bases, Marine bases and we haven't the resources 
and money to take care of them, so we basically ignore them. 
Isn't that true, gentlemen?
    General Ellis. No, we don't ignore them. Each of those 
issues is being worked. I am not sure we are ignoring any of 
them.
    Mr. Shays. Maybe I am using ignore differently than you. We 
have not yet cleaned up. All of you are high ranking officials, 
the Air Force, the Navy, the Marines and the Army.
    Mr. Burton. Excuse me for interrupting. Evidently there is 
a fire someplace in the building and they have asked everyone 
to evacuate. I am sorry but we will have to suspend the hearing 
until this is finalized. We will see you back as soon as the 
fire alarm goes off.
    [Recess.]
    Mr. Burton. Let us try to conclude the first panel. I 
appreciate your patience.
    Ms. Davis, questions?
    Ms. Davis. Does anyone have any idea dollarwise what the 
military spends fighting these lawsuits for these species?
    General Ellis. I am not sure we can put it in terms of 
dollars to fight a lawsuit but I can tell you what we spend in 
trying to be good stewards. I asked for the information in 
reference to Mr. Shays' question earlier.
    The Army has several programs to address the clean up of 
contaminated areas and he asked what were we doing. In three 
areas, in installation restoration programs, we have $390 
million a year we are spending; in BRAC to address the clean up 
we have $280 million a year; and then something called formerly 
used defense sites, FUDS, we spend $230 million a year and that 
goes to the Corps of Engineers to facilitate, for a total of 
$900 million a year from the Army in this area.
    The question was are we doing anything to correct past sins 
and the answer is yes, we are. In fact, all known past sins we 
take those on. If there is one out there, we don't know about 
it.
    Mr. Burton. What are you spending on enhancing training, 
are you spending $900 million on it?
    General Ellis. I would like to have an additional $900 
million. Our training is tied into what we call our up-tempo 
program.
    Mr. Burton. I am curious to see how it equates to the money 
you are spending on these environmental issues.
    General Webster. For training each year, we are spending 
about $9 billion a year for training. Mixed in there are 
training enhancements.
    Ms. Davis. I wondered if anyone knew the court costs, the 
lawsuit costs?
    General Ellis. I don't know.
    General Hanlon. In the case of the gnatcatcher the lawsuit 
right now is with the Fish and Wildlife Service, so they are 
involved in the litigation and costs associated with that. So 
far it has not crossed back over to us. I could find out from 
Headquarters Marine Corps what other costs we may have had to 
pay over the years in terms of similar lawsuits. We can find 
that for the record.
    General Jumper. In the Air Force, we have about $400 
million a year we spend on environmental compliance of one type 
or other. I don't know how that breaks out to the lawsuits in 
particular but we can also supply that for the record.
    Admiral Fallon. The Navy spends over $300 million a year 
and we project continuing expenditure at that rate through the 
next 5 years working environmental cleanup. Again, I don't have 
a breakout of the legal fees but I do know it is more than the 
Navy--we use Justice Department legal help with most of these 
lawsuits, so it is bigger than just the military.
    Mr. Burton. Mr. Lewis.
    Mr. Lewis. After the Rumsfeld report comes out and the 
smoke clears, there is probably going to be another round of 
BRAC. My question when or if there is another round of base 
closures, how much in your recommendation to a BRAC Commission 
of this plays into the closing of bases and forts, the 
community support, the environmental problems that may be at a 
particular installation? Can you give me an idea how much that 
plays into your recommendations to a BRAC Commission on whether 
that base or fort should stay in existence?
    Admiral Fallon. I'll take a stab. Just an opinion. I can 
tell you that the community support aspect is very significant. 
It makes a tremendous difference to have the confidence of the 
local population in any one of our activities.
    I would tell you there has been such a change just in the 
last decade. I was here when we went through the early BRAC 
rounds and I would say from my perspective then, the 
environmental piece was not that significant. Given the 
dramatic growth in issues and problems over the last decade, it 
is probably going to be more of a factor than before. How much, 
what percentage you give that versus some other, I couldn't 
tell you but it would be more significant than the last time.
    General Jumper. I can tell you when we look at Air Force 
bases, range accessibility, distance to ranges, the regulatory 
problems with those ranges weigh very large in our decision on 
such a recommendation. I think it plays a significant part in 
how we would consider.
    Mr. Lewis. That plays very heavily in your cost analysis of 
whether you can keep that installation viable or not?
    General Jumper. Yes, sir.
    General Ellis. I don't know I can add anything to that. I 
know there is usually a set of criteria and we weigh the 
criteria. In most cases, those decisions are made in other 
rounds after we make recommendations. Oftentimes the 
recommendation we make is not necessarily the one taken.
    Mr. Lewis. General Ellis, I have Ft. Knox in my district 
and I didn't see it in your written statement as being one of 
the installations with particular problems as far as 
environmental concerns. I am sure there are some but I didn't 
notice any. It wasn't pointed out like some of the others. Do 
you know of any particular problems Ft. Knox may have?
    General Ellis. I would have to get that for the record. 
What I know is we have 153 endangered species across 94 
installations, across the Army. It runs the gamut and I would 
have to look up Ft. Knox to be exact. I can provide that to 
you.
    Mr. Lewis. Thank you.
    Mr. Burton. Mr. Schrock.
    Mr. Schrock. I heard General Hanlon talk about the 
endangered species, the gnatcatcher. I was wondering does the 
Navy have comparable problems with endangered species since you 
are at sea all the time?
    Admiral Fallon. Yes, sir, there are lots of issues. One 
that comes to mind immediately out on the West Coast, San 
Clemente Island, there is another small bird known as the 
logger head shrike in small numbers and on San Clemente there 
was a major effort to actually count the total number. When 
this was done a couple of years ago, the number was 13 and the 
population has grown to 42. We have now introduced a domestic 
breed, a basic program of reintroducing these ourselves. Our 
people are spending their time going around counting birds but 
the impact is because of the nesting areas, the restrictions 
that have been imposed include one of the two live firing 
ranges has been reduced in size by 90 percent and the other by 
50 percent.
    The other side is you do well in preserving these things 
and they tend to expand their range, so they are now 
encroaching on the remaining two live ordnance spaces. During 
the breeding season, the shore bombardment range is closed 4 of 
7 days of the week so they can count the birds.
    Mr. Schrock. Who pays for that?
    Admiral Fallon. We do.
    Mr. Burton. I have been informed that the cost for 
maintaining the logger head shrike and all the investigations 
is $2.4 million.
    Ms. Davis. Is that our military men and women going around 
counting the birds?
    Admiral Fallon. I would say there is probably a mix of 
military people and our civilians that we hire to do it. I know 
many of the conservation people I have run into are civilian 
hires working for the Navy Department. We probably have some 
military engaged in this as well.
    General Jumper. It is a combination of both. We have the 
same situation with the prong horned antelope out in Arizona. 
They roam the plains in Arizona and New Mexico. We have hired 
biologists to go out and monitor the movement of these antelope 
so when the airplanes come on the range, the people on the 
ground can tell the airplanes they can't bomb there during that 
period of time.
    We hired the two biologists on the range to monitor the 
animals and we have to react accordingly.
    Mr. Burton. Don't the animals leave when a bomb goes off?
    General Jumper. Yes, sir. They are pretty smart, they do 
leave when they hear the sound of the airplanes most of the 
time. To be fair, we don't lose a lot of sorties because of 
this but every time you brief a sortie onto this range, you 
always have to brief the backup antelope plan what you are 
going to do in case the antelope are there and you have to do 
something else. Like Admiral Fallon said, it digs into your 
administrative time that you are spending and not doing the 
mission.
    Admiral Fallon. We have aircraft that fly continuously on 
the ranges and the waters along Vieques looking for sea turtles 
and if they find one, all operation ceases.
    Mr. Burton. Because of a sea turtle.
    Let me conclude with this panel with this question and I 
have a request for all of you. Do you believe these 
encroachment issues are of such significance that it is time 
for the Service Secretaries and Chiefs to formally address them 
as a serious readiness concern when they appear before the 
military committees of the Congress?
    Admiral Fallon. It is a growing problem. The answer is yes 
and I think there is a recognition of that fact. I can tell you 
when I first came to Washington about 6 months ago I was 
invited to a Secretary of Defense/OSD meeting at which this 
issue of encroachment was discussed in readiness terms in 
exactly the right forum with the right kind of discussion going 
on. It is clear to me this is recognized as a major and growing 
issue and I think it is going to be addressed.
    Mr. Burton. Do you all agree?
    General Jumper. The answer is yes and I think my Service 
Chief is anxious to bring it up if it doesn't come any other 
way.
    General Hanlon. Our Commandant I think already has brought 
it up in front of some of the Defense committees in his 
testimony.
    Mr. Burton. General Ellis, the same?
    General Ellis. Yes.
    Mr. Burton. Secretary Rumsfeld you believe will be made 
aware of this in addition?
    Let me ask you after the hearing would you please provide 
us a comprehensive list of suggestions on how the Congress 
might be able to address some of these issues. We would like 
that in writing so we can put it possibly in the form of 
legislation as well as referring the issue to the President and 
the Secretary of the Defense Department.
    Would you please ask your Service Chief to provide this 
committee examples of your military units with fluctuating C-
ratings attributable to incomplete training, insufficient type 
training time or inadequate training areas from January 2000 to 
the present. I think you probably were prepared for that 
question, so if you could send us that information, we would 
appreciate it.
    With that, thank you very much for your patience, your 
candidness and I promise you we will be sending correspondence 
with your recommendations to the people in question and 
probably have a number of Members of Congress sign that.
    Ms. Davis.
    Ms. Davis. Could I ask unanimous consent to ask further 
questions in writing and have them included in the record?
    Mr. Burton. Yes. Any other Member that has questions, if 
you wouldn't mind we would like to submit those for answers as 
well.
    Thank you.
    We will now have our next panel come forward. Panel two 
will be Lieutenant General Leon J. LaPorte; Brigadier General 
James R. Battaglini; Captain William H. McRaven; and Colonel 
Herbert J. Carlisle. Would you please stand and be sworn as 
well?
    [Witnesses sworn.]
    Mr. Burton. Mr. Ose.
    Mr. Ose. I have the distinct pleasure of introducing one of 
our witnesses, Brigadier General James R. Battaglini. General 
Battaglini is currently serving as the Deputy Commanding 
General of the 1st Marine Expeditionary Force which is 
comprised of an infantry division, an air wing, a service 
support group and a command and control headquarters located at 
several bases in southern California and Arizona.
    At over 43,000 Marines and sailors, it is the largest 
standing air/ground combat task force in the world. It is 
responsible for conducting missions throughout the spectrum of 
war from high intensity combat such as might occur in the 
Korean peninsula or did occur in Desert Storm, down to low 
intensity operations and humanitarian assistance operations.
    His areas of responsibilities are primarily in the Pacific, 
Asia, southwest Asia or the Persian Gulf area and eastern 
Africa. This force has a proud combat history that includes 
every major conflict in the last century.
    General Battaglini was commissioned a Marine Corps officer 
in 1971 and served in key command and staff assignments at 
every level in the United States and overseas. Some of his 
career highlights include Reconnaissance and Infantry Platoon 
Commander, Infantry Company and Recruiting Station Commander, 
Infantry Battalion Commander, Operations Officer for the 2d 
Marine Division during Operation Desert Shield and Desert 
Storm; Commanding Officer, 26th Marine Expeditionary Unit with 
Special Operations capabilities; Chief, United Nations 
Division, J-5 on the Joint Staff; Military Aid to the Secretary 
of the Navy. He has also been the Commanding General of the 
Marine Corps Recruit Depot at Parris Island in South Carolina.
    His personal military decorations include the Defense 
Superior Service Medal, the Legion of Merit with gold star, the 
Bronze Star with combat V and the Combat Action medal.
    I am pleased to introduce General Battaglini.
    Mr. Burton. In order to expedite the introductions because 
of time constraints and because we are running late, let me 
introduce the other members of the panel as well.
    Lieutenant General Leon J. LaPorte is the Commanding 
General of the III Armored Corps in Ft. Hood, TX. There he is 
responsible for 37 percent of all U.S. active Army ground 
combat power to include the III Corps, the 1st Calvary, the 4th 
Infantry Division and the III Armored Calvary Regiment. The III 
Corps has over 75,000 soldiers and 24,000 combat vehicles and 
aircraft. The III Corps is the most powerful armored corps in 
the world and has installations in Texas, Oklahoma, Kansas and 
Colorado as well as units and soldiers deployed worldwide. In 
fiscal year 2000, III Corps deployed over 46,000 soldiers 
outside the United States.
    General LaPorte was commissioned a second lieutenant in 
1968 and has served in a variety of command and staff positions 
in the United States, Vietnam, Germany and Southwest Asia 
during the Operation Desert Shield and Desert Storm. He has 
commanded at every level platoon, company, battalion, brigade, 
division and now the III Corps. He has also served in a variety 
of staff positions to include instructor and assistant 
professor at the U.S. Military Academy, West Point, Armored 
Colonels' assignment officer and before assuming command at III 
Corps, served as Assistant Deputy Chief of Staff for Plans and 
Operations at Headquarters, Department of the Army.
    Welcome to you.
    Captain William McRaven, U.S. Navy, is a 1977 graduate of 
the University of Texas and has been a Navy Seal for the past 
24 years. He has served in every leadership position within the 
Seals including Seal Platoon Commander, the Officer in Charge 
of Regional Security Team for Central and South America Task, 
Unit Commander during Desert Shield and Desert Storm and the 
Commanding Officer of Seal Team III.
    Captain McRaven is a qualified diver, parachutist, 
demolition expert and submersible pilot. He has a Masters 
Degree in National Security Affairs and is the author of a book 
on special operations. He is currently the Commander of Naval 
Special Warfare Group I in San Diego. Group I is responsible 
for training and deploying Seal platoons to the Pacific Command 
and the Central Command.
    Our final panelist is Colonel Herbert Carlisle, Commander 
of the 33rd Fighter Wing, Eglin Air Force Base, Florida. The 
Wing's mission is to maintain the world's best rapidly 
deployable air control and superiority forces for theater 
commanders in chief. Since World War II, the Wing has superbly 
executed that mission and is nicknamed the Nomads for its 
consistent travel.
    During World War II, the Wing saw action in North Africa, 
Mediterranean and CVI theaters. Upon activation at Eglin during 
the Vietnam conflict, the 33rd deployed eight squadrons of F-4s 
to southeast Asia. Over the skies of Vietnam they scored two of 
the toughest aerial victories of that conflict.
    Throughout the 1980's the Wing was called upon to support 
numerous contingency operations such as the urgent fury in 
Granada and Just Cause in Panama. About 1990 of August, they 
were one of the first wings to deploy for Operation Desert 
Shield and as Desert Storm began, their winning tradition in 
the skies continued as Nomads scored 16 aerial victories 
including the first kill of the war and the most kills of any 
single unit. The Wing also flew more combat hours and sorties 
than any other unit in the theater.
    Subsequently the 33rd Wing has been involved with numerous 
rotations enforcing the no fly zones over Iraq in support of 
U.N. sanctions. Likewise the Wing has supported Operation 
Restore Hope in Haiti, flight over Bosnia and more recently the 
Allied Force in Yugoslavia.
    As you can see, the Nomads are one of the most experienced 
combat wings in the U.S. Air Force today. The Wing currently 
has two fighter squadrons consisting of 54 F-15 CD air superior 
aircraft and Air Control Squadron, Operations Support Squadron, 
Logistic Support Squadron and Maintenance Squadron. This 
equates to 1,800 assigned personnel and approximately 3,000 
family members. On a yearly basis, the Wing flies over 10,000 
sorties and 14,000 flying hours, primarily utilizing 25,000 
square miles over water and over land air space in the England-
Gulf Coast range complex.
    Very impressive all of you and thank you for being here. We 
will start with General LaPorte.

 STATEMENTS OF LIEUTENANT GENERAL LEON J. LAPORTE, COMMANDING 
 GENERAL, III CORPS AND FT. HOOD, U.S. ARMY; BRIGADIER GENERAL 
  JAMES R. BATTAGLINI, DEPUTY COMMANDING GENERAL, 1ST MARINE 
  EXPEDITIONARY FORCE, U.S. MARINE CORPS; CAPTAIN WILLIAM H. 
MCRAVEN, COMMODORE, NAVAL SPECIAL WARFARE, SEAL GROUP ONE, U.S. 
NAVY; AND COLONEL HERBERT J. CARLISLE, COMMANDER, 33RD FIGHTER 
           WING, EGLIN AIR FORCE BASE, U.S. AIR FORCE

    General LaPorte. Thank you.
    III Corps is a war fighting organization. Every day this 
past 2 years we have had nearly 6,000 soldiers deployed 
overseas, so our concern is always having our soldiers prepared 
to fight.
    Military training is not incompatible with environmental 
stewardship. In fact, I would ask the committee to constantly 
remind us of our stewardship responsibility because as American 
citizens we need to do what is right. We work hard each day to 
achieve the appropriate balance to accomplish both these tasks.
    We have had considerable success at Ft. Hood because of 
tremendous relationships we have forged with the community, 
Federal and State environmental regulators. I will tell you 
very candidly we are suboptimizing our training. Eighty-four 
percent of Ft. Hood, an installation of nearly 200,000 acres 
has some form of restriction that limits the training that can 
be conducted on the reservation. The cumulative effect of these 
restrictions impacts our ability to execute realistic and 
demanding training that our soldiers deserve and require.
    The recognition that valid military training requirements 
must be an element of the analysis, decision and enforcement of 
our Title 10 responsibilities as we implement the environmental 
laws is critical. I believe we must have a more holistic 
approach to application of the environmental laws and 
regulations on our ranges and training lands.
    Laws that protect the environment are currently applied 
independently of one another. Too often this leads to the 
protection of some resources at the expense of other resources 
and the overall detriment, the overall health of our ranges and 
training areas. The myriad of restrictions makes the use of 
available training lands more difficult for units and more 
complex than is necessary for the sustainability of these 
lands. You must be able to balance training and environmental 
stewardship to maintain readiness and sustain healthy 
ecosystems.
    I look forward to answering your questions.
    [The prepared statement of General LaPorte follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.118
    
    [GRAPHIC] [TIFF OMITTED] T5041.119
    
    [GRAPHIC] [TIFF OMITTED] T5041.120
    
    [GRAPHIC] [TIFF OMITTED] T5041.121
    
    [GRAPHIC] [TIFF OMITTED] T5041.122
    
    [GRAPHIC] [TIFF OMITTED] T5041.123
    
    [GRAPHIC] [TIFF OMITTED] T5041.124
    
    [GRAPHIC] [TIFF OMITTED] T5041.125
    
    [GRAPHIC] [TIFF OMITTED] T5041.126
    
    [GRAPHIC] [TIFF OMITTED] T5041.127
    
    [GRAPHIC] [TIFF OMITTED] T5041.128
    
    [GRAPHIC] [TIFF OMITTED] T5041.129
    
    [GRAPHIC] [TIFF OMITTED] T5041.130
    
    [GRAPHIC] [TIFF OMITTED] T5041.131
    
    [GRAPHIC] [TIFF OMITTED] T5041.132
    
    [GRAPHIC] [TIFF OMITTED] T5041.133
    
    [GRAPHIC] [TIFF OMITTED] T5041.134
    
    [GRAPHIC] [TIFF OMITTED] T5041.135
    
    [GRAPHIC] [TIFF OMITTED] T5041.136
    
    [GRAPHIC] [TIFF OMITTED] T5041.137
    
    [GRAPHIC] [TIFF OMITTED] T5041.138
    
    [GRAPHIC] [TIFF OMITTED] T5041.139
    
    [GRAPHIC] [TIFF OMITTED] T5041.140
    
    [GRAPHIC] [TIFF OMITTED] T5041.141
    
    [GRAPHIC] [TIFF OMITTED] T5041.142
    
    [GRAPHIC] [TIFF OMITTED] T5041.143
    
    [GRAPHIC] [TIFF OMITTED] T5041.144
    
    [GRAPHIC] [TIFF OMITTED] T5041.145
    
    [GRAPHIC] [TIFF OMITTED] T5041.146
    
    [GRAPHIC] [TIFF OMITTED] T5041.147
    
    [GRAPHIC] [TIFF OMITTED] T5041.148
    
    [GRAPHIC] [TIFF OMITTED] T5041.149
    
    [GRAPHIC] [TIFF OMITTED] T5041.150
    
    [GRAPHIC] [TIFF OMITTED] T5041.151
    
    [GRAPHIC] [TIFF OMITTED] T5041.152
    
    [GRAPHIC] [TIFF OMITTED] T5041.153
    
    [GRAPHIC] [TIFF OMITTED] T5041.154
    
    [GRAPHIC] [TIFF OMITTED] T5041.155
    
    [GRAPHIC] [TIFF OMITTED] T5041.156
    
    [GRAPHIC] [TIFF OMITTED] T5041.157
    
    [GRAPHIC] [TIFF OMITTED] T5041.158
    
    [GRAPHIC] [TIFF OMITTED] T5041.159
    
    Mr. Burton. General Battaglini.
    General Battaglini. I would like to get into the negative 
impacts of the training and how it has affected the Marines at 
I Expeditionary Force.
    Our Marines are either forward deployed or they are 
training to deploy and because of that, we see it is imperative 
that we are prepared and we train the way we fight.
    In addition to my duties as the Deputy Commanding Officer 
of the 40,000-plus Marines, I am also the Commanding General of 
the 1st Marine Expeditionary Brigade. The Brigade is our mid-
level size air-ground task force that is our premiere force for 
response to small scale contingencies, short of when we would 
commit the MEF itself.
    I thought it would be beneficial if I could provide you my 
own experience recently regarding the cumulative effects of 
encroachment on our training.
    During the later part of March and into April we conducted 
a I Marine Expeditionary Brigade level size exercise called 
Kernal Blitz, conducted off the coast of southern California 
and on the beach at Camp Pendleton to the training areas at the 
base. The exercise included about 20 Navy ships, 50 Marine 
Corps aircraft we had operating off those ships and over 10,000 
Marines and sailors participating.
    I would like to begin with our landing on the landing 
beaches. Our movement from ship to shore during our amphibious 
assault as we call it, our tactical movement was restricted as 
we landed across the primary beach because of riparian habitat 
that supports several endangered species. I will try to draw a 
picture of what this does to us.
    We land across the beach and have to take into 
consideration the habitat. Interstate 5 runs parallel to the 
beach about 1,000 meters inland, so between the beach and the 
highway we were limited to two single lane roads because of the 
habitat and archaeological site located in the area.
    Once we get to the interstate, we take these two single 
lane roads, converge and we have one single lane road that goes 
under the interstate to the training area. We are moving across 
there, 2,500 Marines and 500 vehicles in the course of landing 
so it is very slow and very restricted.
    Once in the training area, we also are restricted by the 
habitats and planning we have to do to get around the 
restrictions there. That was our primary beach. We used a 
second beach where we landed light armored reconnaissance 
company, strictly administrative rather than a tactical 
movement due to the presence of the endangered species the 
snowy plover, the Tidewater Goby and the California least tern. 
There were some people watching where we landed and directing 
us so we can move up and get into the training areas.
    There are two other beaches we are allowed to use at Camp 
Pendleton to make it four but we are restricted to these two. 
The other two because of the season of the year, we couldn't 
land across those, so it restricted our tactical ability to 
employ any kind of options. We land across the beach and a 
second beach and move up to prosecute the rest of the exercise.
    Once we land with our forces, our lead infantry units are 
moving inland, going after the enemy and the enemy is someone 
you are trying to have a mental game with, trying to outsmart 
him, trying to tactically out move him but he knows too that 
you are restricted here.
    Our artillery lands behind our infantry and the intent is 
as the infantry moves forward, the artillery will provide 
support. The artillery commander and the tank commander wanted 
to set up firing positions in established areas to actually 
fire but were restricted from firing because of air space 
restrictions. We were restricted to 2,000 feet overhead.
    We couldn't fire our guns, our forward observers in the 
impact area adjusting would get the training there and weren't 
able to and then the battalion staff and fire support 
coordinators were not able to get that training.
    Our tank company commander comes ashore, he wanted to 
employ his tanks in a blocking position. Once he lands, he 
follows the road he has to follow to get to the training area 
and is going down to a flank of an infantry unit he is 
providing support but he has to move down a road which is not 
tactical and he gets to the position to set up the flank 
security, he can't get off road and he can't entrench himself 
so this prohibits him from doing the training he would be 
required to in combat.
    Finally, so we can move through testimony, our infantry 
company commanders could not have the Marines set in a hasty 
defense using fighting holes because digging on Camp Pendleton 
must be preapproved after environmental analysis. That gets 
into a company commander being able to make a tactical decision 
where he wants to send in his people.
    Those are but a few examples of the impact of encroachment 
on training and hopefully it provides some indication of what 
we face. For Marines to succeed, we must train as we fight. Our 
training must be realistic and allow us to exercise our mission 
essential tasks.
    The key note of the effects of encroachment significantly 
reduce our training options, result in unrealistic training, 
create bad habits and severely limit the opportunity for junior 
leaders to develop their initiative and tactical judgment which 
is essential in combat.
    We work hard to find ways to satisfy both our training 
requirements and the issues raised by encroachment. However, 
the problem we face, sir, is that every year additional 
encroachment issues and additional restrictions on our 
training. New restrictions are piled upon existing restrictions 
with the result that our ability to realistically train our 
Marines continues to significantly diminish. On behalf of all 
Marines, we appreciate your willingness to hear our concerns 
today. We would ask that you clarify environmental legislation 
when it conflicts with our Title 10 responsibility to train our 
Marines for combat.
    Thank you, sir.
    [The prepared statement of General Battaglini follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.160
    
    [GRAPHIC] [TIFF OMITTED] T5041.161
    
    [GRAPHIC] [TIFF OMITTED] T5041.162
    
    [GRAPHIC] [TIFF OMITTED] T5041.163
    
    [GRAPHIC] [TIFF OMITTED] T5041.164
    
    [GRAPHIC] [TIFF OMITTED] T5041.165
    
    [GRAPHIC] [TIFF OMITTED] T5041.166
    
    [GRAPHIC] [TIFF OMITTED] T5041.167
    
    [GRAPHIC] [TIFF OMITTED] T5041.168
    
    [GRAPHIC] [TIFF OMITTED] T5041.169
    
    [GRAPHIC] [TIFF OMITTED] T5041.170
    
    [GRAPHIC] [TIFF OMITTED] T5041.171
    
    [GRAPHIC] [TIFF OMITTED] T5041.172
    
    [GRAPHIC] [TIFF OMITTED] T5041.173
    
    [GRAPHIC] [TIFF OMITTED] T5041.174
    
    [GRAPHIC] [TIFF OMITTED] T5041.175
    
    [GRAPHIC] [TIFF OMITTED] T5041.176
    
    [GRAPHIC] [TIFF OMITTED] T5041.177
    
    [GRAPHIC] [TIFF OMITTED] T5041.178
    
    Mr. Burton. Let me ask, you were describing a combat 
operation and training exercise and if you have that in 
writing, is there any way I can get that in writing so we can 
incorporate that into our correspondence with the President and 
the Secretary of Defense? We would like to have that.
    Captain McRaven.
    Captain McRaven. I also appreciate the opportunity to speak 
to you today on how encroachment is affecting the readiness of 
the Navy Seals.
    In 1987, Congress established into law the Special 
Operations Command and as a result of that legislation, the 
Navy Seals and Special Operations Forces at large are better 
manned, trained and equipped than at any time in our history. 
Our ability to conduct combat missions wherever our Nation 
needs us has never been greater. However, as a result of 
environmental restrictions and urbanization, the costs in 
manpower, money and operational tempo to maintain that high 
degree of readiness have risen dramatically. As an operational 
commander, these costs have a direct impact on our command's 
ability to prepare for combat.
    There are four thoughts I would like to leave you with 
today. First, in order to be ready for combat, we have very 
specific training requirements that must be met. The majority 
of that training takes place on ranges. Second, owing to 
encroachment, quality and availability of our training ranges 
has diminished dramatically. Third, in order to maintain my 
high state of readiness I have developed workarounds but 
unfortunately these workarounds are expensive and require my 
personnel to be away from their home station. Finally, when you 
combine these factors with the new law that limits a 
servicemember's time away from home, you will find that our 
ability to maintain our combat edge is in serious jeopardy.
    The Navy Seals have two primary missions: reconnaissance 
and what we call direct action, raids, ambushes, sneak attacks 
and obstacle clearance for amphibious landings. Most of these 
missions originate from the water and require us to work in 
small units, behind enemy lines at night with little or no 
outside support. In each of these missions, our readiness is 
directly related to the quality of our training ranges, in 
particular, those ranges situated near the water which allow 
the Seal platoon to come across the beach and engage targets 
with live fire and explosives.
    Seals average 103 days per year on a range. Learning these 
skills is not just a matter of proving one's professional 
knowledge in combat, these skills are a matter of life and 
death. Unfortunately, the Seals' ability to train on these 
ranges is becoming increasingly difficult. Environmental 
regulations enforced by Federal, State and local agencies have 
placed a significant financial and manpower burden on our 
staff, but more importantly, these restrictions limit training 
and force my Seals to seek ranges outside of California. This 
subsequently decreases the quality of training and increases 
the Seals already excessive time away from home.
    Let me give you a couple of examples of how encroachment is 
impacting the quality of my training of my Seals. On San 
Clemente Island, we have a range called Eagle Point. It was an 
over the beach, live fire range used during the 1960's, 1970's 
and the early 1980's. Unfortunately, in early 1990, Eagle Point 
was placed off limits owing to the nesting Sage Sparrow and 
Island Night Lizard. The Westside Range, typically used for 50 
caliber and life explosives, has also been shut down to 
accommodate the expansion of these nesting areas. In 1997, one-
third of San Clemente Island was designed an Island Night 
Lizard nesting area. Subsequently, no live fire, no 
demolitions, and no ground disturbing activity is permitted in 
that area.
    Camp Billy Machen located near the Sultan Sea in Imperial 
Valley was established in 1966 at the south end of the vast 
expanse that makes up the Chocolate Mountain Bombing Range. 
Seals preparing for deployment to Vietnam would spend months 
living at Camp Billy Machen training on the range. Here they 
exercised long foot patrols from the camp site, across the 
desert to the Chocolate Mountains. Through the desert and 
mountain passes, they were able to conduct 360 live fire 
operations simulating engaging enemy targets from any threat 
sector. This ability to quickly respond to an unanticipated 
threat from any direction provided unparalleled combat 
training.
    After Desert Storm, the demand for training at Niland 
increased and in 1994 Naval Warfare constructed a new $10 
million facility at Camp Billy Machen. Unfortunately, in 1996, 
a large portion of the Chocolate Mountain Bombing Range was set 
aside as a critical habitat for the Desert Tortoise thereby 
limiting ground activity. In order to preserve this vital 
range, the Navy and the Marine Corps were forced to restrict 
the usage of the Chocolate Mountain Bombing Range to air access 
only and while Camp Billy Machen still has some superb static 
ranges, no where is there the ability for Seals to foot patrol 
and conduct 360 degree live fire.
    Since 1980, the Naval Amphibious Base Coronado has become 
increasingly restrictive due to the nesting by the Western 
Snowy Plover and the Least Tern. Seals no longer conduct 
significant maneuver or dive training around the base.
    As the quality of the ranges in southern California 
diminish, Seals are exploring other options to maintain their 
combat edge. With the current limitations on live fire on 
maneuver ranges, Seals have resorted to using blanks, paint 
ball, laser tag, and simulated ammunition. While each of these 
methods has some training value, none of them, absolutely none 
of them, has the stress effect of live fire. While there are 
some quality live fire ranges in the United States, the Seals 
have to travel out of the area to reach those ranges.
    Complicating our readiness is an issue with the 2000 
National Defense Authorization Act which limits the number of 
days a servicemember can be away from home. It requires a four 
star, flag or general officer waiver for any member that is 
away from home for more than 220 days in a rolling 365 day 
period. While I strongly support this law, when one considers 
that a normal Navy overseas deployment is 182 days that leaves 
only 30 or 40 days available for training away from your home 
station. Consequently, the availability of quality ranges in 
the vicinity of one's home station is absolutely essential to 
maintaining readiness.
    While I have focused almost exclusively on Navy Seals, this 
encroachment issue affects every Special Operations Force 
assigned to the U.S. Special Operations Command from our Army 
Green Berets and Rangers to the Air Force and Army aviators who 
fly our rotary and fixed wing aircraft, restrictions on land, 
air and water ranges extol large costs in money, manpower and 
operational tempo. If this encroachment continues, the cost of 
doing business will severely impact the combat readiness of 
these soldiers, sailors and airmen.
    The reduction in our combat capability will not be 
immediately apparent. Command leadership will identify 
reasonable workarounds that simulate combat conditions as best 
as possible but make no mistake about it, over time the combat 
edge will become dull.
    Special Operations personnel have one goal in mind to win 
in combat and bring their men home alive. There are countless 
ways to go through the motions but to build a war-fighting 
capability that will succeed on the battlefield and keep 
America's young men and women safe, we need ranges that provide 
the whole spectrum of combat skills training.
    While combat readiness is our No. 1 priority, it has always 
been our intent to be good stewards of the environment. I look 
forward to working with those local, State and Federal agencies 
responsible for the oversight to develop a reasonable, balanced 
approach.
    I thank you for your time and interest on this very 
important issue and I standby to answer any questions you might 
have.
    [The prepared statement of Captain McRaven follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.179
    
    [GRAPHIC] [TIFF OMITTED] T5041.180
    
    [GRAPHIC] [TIFF OMITTED] T5041.181
    
    [GRAPHIC] [TIFF OMITTED] T5041.182
    
    [GRAPHIC] [TIFF OMITTED] T5041.183
    
    [GRAPHIC] [TIFF OMITTED] T5041.184
    
    [GRAPHIC] [TIFF OMITTED] T5041.185
    
    [GRAPHIC] [TIFF OMITTED] T5041.186
    
    [GRAPHIC] [TIFF OMITTED] T5041.187
    
    [GRAPHIC] [TIFF OMITTED] T5041.188
    
    [GRAPHIC] [TIFF OMITTED] T5041.189
    
    [GRAPHIC] [TIFF OMITTED] T5041.190
    
    [GRAPHIC] [TIFF OMITTED] T5041.191
    
    [GRAPHIC] [TIFF OMITTED] T5041.192
    
    [GRAPHIC] [TIFF OMITTED] T5041.193
    
    [GRAPHIC] [TIFF OMITTED] T5041.194
    
    [GRAPHIC] [TIFF OMITTED] T5041.195
    
    [GRAPHIC] [TIFF OMITTED] T5041.196
    
    [GRAPHIC] [TIFF OMITTED] T5041.197
    
    Mr. Burton. Thank you, Captain.
    Colonel Carlisle.
    Colonel Carlisle. I also would like to thank you for the 
opportunity to talk with you today. I would just like to make a 
brief statement from an Operational Commander's perspective.
    The single greatest advantage we have over our potential 
adversaries is the way we train. Not too long ago, we enjoyed a 
significant technological advantage over our adversaries. 
Unfortunately, that is no longer the case not with the current 
systems we fly and employ today. In many cases, adversaries are 
at parity with us and in some cases, they are actually better 
than us. So the importance of how we train and the importance 
of these discussions cannot be overstated.
    I have submitted my written testimony, so I am ready to 
answer any questions you might have.
    [The prepared statement of Colonel Carlisle follows:]

    [GRAPHIC] [TIFF OMITTED] T5041.198
    
    [GRAPHIC] [TIFF OMITTED] T5041.199
    
    [GRAPHIC] [TIFF OMITTED] T5041.200
    
    [GRAPHIC] [TIFF OMITTED] T5041.201
    
    Mr. Burton. Thank you very much.
    Let me start with you, General LaPorte. You said 84 percent 
of Ft. Hood is restricted at some time for some purposes?
    General LaPorte. Yes, sir. I have some exhibits that could 
show you the cumulative effect of that encroachment.
    Mr. Burton. I would like to see those.
    General LaPorte. Would you put up exhibit No. 1, please? 
This is an outline of Ft. Hood. It is nearly 200,000 acres and 
does not include the contonement area, it is all contiguous.
    The next exhibit is an example of the encroachment from 
Killeen. The northern part of Ft. Hood is north of that yellow 
line. You can see to the south right around one of our major 
air fields, the city of Killeen is built right up to the fence 
line. That is a significant challenge to us to conduct training 
and night aviation operations.
    The next exhibit shows the no dig areas on Ft. Hood, 64 
percent of the area on Ft. Hood is listed as no dig.
    Mr. Burton. Explain to me, when you say no dig, you mean 
you can't even dig a foxhole?
    General LaPorte. No, you can't dig a foxhole, can't dig 
fighting positions.
    Mr. Burton. What percent, 64 percent?
    General LaPorte. 64 percent.
    Mr. Burton. Why is that?
    General LaPorte. It is a combination of protected Corps and 
non-Corps habitat for endangered species.
    Mr. Burton. What endangered species would cover 64 percent 
of the land mass from digging a foxhole?
    General LaPorte. We have two endangered species at Ft. 
Hood, the Black-capped Verio and the Golden-cheeked Warbler.
    Mr. Burton. What are those? The warbler is a bird, isn't 
it?
    General LaPorte. Two birds.
    Mr. Burton. How is digging a foxhole going to hurt the 
bird?
    General LaPorte. You can't disturb their core or non-core 
habitat. There is no digging allowed. The opinion issued by the 
U.S. Fish and Wildlife Service creates that sanctuary for the 
birds and during the nesting season, which is March to 
September. You can't go through there at all, so there is no 
training allowed whatsoever in that training area.
    Mr. Burton. Are we videotaping this? I want to send a copy 
of the videotape, along with our stuff. This is ridiculous. I 
am a little upset as well because I had to dig and I hate it 
that these guys don't have to dig anymore. The ground was hard 
and it was cold. [Laughter.]
    General LaPorte. We teach soldiers that dirt is a combat 
multiplier and if you dig holes you can survive on a 
battlefield. This is why we suboptimize training.
    Mr. Burton. I know.
    General LaPorte. This an example of the non-core habitat. I 
will tell you that the Fish and Wildlife Service has worked 
with us in reclassifying what was core to non-core habitat 
which gives us a little more flexibility but in non-core 
habitat, you can see year around, no digging, no open fires, no 
tree or brush cutting, no destruction of the habitat, which for 
a mechanized force becomes challenging. That is 10 percent of 
the training area. Go to the core habitat.
    The core habitat year around has the same restrictions as 
non-core habitat but during the March through August period, 
there are no vehicle or dismounted maneuver, no movement 
whatsoever, you have a 2-hour limit to transit the area, you 
can't use any smoke, artillery, any type of bivouac or 
camouflage nets.
    Mr. Burton. You can't bivouac in that area?
    General LaPorte. No, sir, not during the mating season.
    Mr. Burton. I wouldn't have minded that because I didn't 
like bivouac anyhow. It was five above zero the last bivouac we 
had and it was cold. I had an air mattress that had a hole in 
it. Back in those days, you had an air mattress and you put 
your sleeping bag on top of the air mattress and every time I 
got the thing blown up, which we had to do manually, the air 
would start leaking out of it. Just about the time I would get 
to sleep, I would hit the ground again and wake up. [Laughter.]
    General LaPorte. These are cultural sites that are 
safeguarded under various National Historic Preservation Acts. 
At Ft. Hood, we have nearly 1,200 sites protected, nearly 2,200 
sites identified. What that means is you can't dig within 50 
meters, no construction or destruction and no traffic moving 
through any of those sites. So you see how it starts adding to 
it. Next slide.
    We have restrictions on the use of smoke and a mechanized 
force, obscuration of the battlefield is a critical combat 
multiplier that we want to train on at every level. Because of 
encroachment, primarily urban encroachment, we are no longer 
allowed to use smoke in the areas covered in that purple color. 
Next slide.
    Finally, Ft. Hood has a great relationship with the 
surrounding community and noise encroachment is a very 
manageable problem. We still have problems with the northwest 
side of our reservation in terms of artillery fire but you can 
see the cumulative effect of all that is 84 percent of the 
training area has some form of restriction for a mechanized 
force.
    The last slide, to keep this in perspective, a brigade in 
World War II used a terrain about 8 kilometers by 12 
kilometers. That is what they fought in. The brigade we just 
trained at the National Training Center, the digitized brigade 
of the Fourth Infantry Division, trains and is expected to 
operate over a 50 x 50 kilometer space. You can see the 
significant requirements that we now have and we have shrinking 
insulation to execute this mission essential training.
    Mr. Burton. General Battaglini, it is my understanding that 
the First Marine Division practiced at Camp Pendleton beaches 
for 6 months before they assaulted the island of Iwo Jima in 
World War II. Are you allowed to train the same way today and 
if not, can you tell us why?
    General Battaglini. The base was established back at that 
time, I believe around 1940 or 1941 around the time of the 
Second World War obviously for the use of the beaches in 
preparation for Marines to go overseas. Restrictions as we know 
them today were not existent.
    I would make the point that weaponry since that time have 
changed throughout the years. The restrictions we find 
ourselves in now that they did not have then, a lot of the 
ranges were set up for the capabilities of that time and now we 
find we need to maximize every available bit of space for our 
training.
    Mr. Burton. You have weapons that are much more far 
reaching than what you had in World War II when you used the 
Browning automatic rifle and the M-1 and you don't have any 
space for it?
    General Battaglini. We need to maximize the space that we 
have to accommodate the weapons that we have, sir. As we look 
to the future in all of our ranges, we need to be able to 
accommodate by adjusting the space that we have to the 
enhancements in technology that will affect our weaponry and 
our tactics.
    Mr. Burton. Ms. Davis.
    Ms. Davis. Thank you.
    Colonel Carlisle, you are here as a representative of all 
Air Force combat pilots?
    Colonel Carlisle. Yes, ma'am.
    Ms. Davis. If we were to have a commander come from each 
base, do you think they would say the same things you have, 
that encroachment is a critical problem for them?
    Colonel Carlisle. Yes, ma'am. Actually, I don't think you 
would have to restrict it to Air Force. I think you could 
restrict it to every service because every service has some 
form of air power that participates in the overall game plan 
for a joint force that we put forth in any contingency. 
Clearly, even the Navy's impact of the AK's and we add the 
honor of hosting them at Eglin because they had to go 
somewhere, but that all puts training on everybody's range as 
we get more and more restrictions. Even Ft. Hood when we do 
close air support with those guys and take up our A-10's, those 
air space restrictions can cause havoc with our aviators and 
their aviators. So it wouldn't be just the Air Force; I believe 
it would be all the services, range encroachment has a 
significant impact.
    Ms. Davis. Do you think it affects morale and that question 
would be for all of you?
    Colonel Carlisle. I definitely think it affects morale. 
Clearly, we have been fortunate to be on a winning team, we 
love to win, everybody wants to win and we have been very 
fortunate to do that. Part of winning is training the way you 
are going to fight like everyone said before me. Clearly when 
we go to a combat region, we were employed to win, so we have 
to train that way. If we are air space restrictions were kept 
and altitudes we can't go above, that is not realistic or we 
can't go supersonic because of noise complaints, that is not 
realistic. All those make you less capable of doing the mission 
the way you will do it to go out and win. That clearly has an 
impact on morale.
    Ms. Davis. Do you think this is affecting retention in any 
of the services?
    Colonel Carlisle. I do personally. I would say there are a 
bunch of factors that affect retention as everyone knows. There 
is a push-pull, there is being pushed out of the military and 
there is the pull of the economy which everyone talks about. 
The push part of the military, one of them is the way we train, 
there are a bunch of components. Clearly the ability to train 
the way we are going to fight and the ability to employ our 
airplanes the way they are designed to be employed is a factor.
    Ms. Davis. I think we all know F-15 pilots sort of have an 
ego anyway, so if they can't train, then they probably aren't 
too happy.
    As a Wing Commander, do you or any of your staff meet with 
the FAA?
    Colonel Carlisle. Yes, ma'am. At Eglin, it is a very, very 
big process. We have three different flying wings, four 
different total wings. We have what we consider a national 
treasure in the range space. The Eglin air space is truly a 
national treasure and an asset that every service uses and 
participates with. We all participate in that. We all meet with 
the FAA on a normal basis. We have representatives from all the 
different wings and we have a fairly large agency on Eglin that 
deals with them a lot and we all have members of that board.
    Ms. Davis. Do any of the others of you want to comment on 
anything?
    General LaPorte. Your question on retention, I don't know 
if there is a direct correlation but our young officers and 
NCOs understand task conditions and standards, that is the way 
we train. They are executing a task, not to standard because 
the conditions under which we conduct that training do not 
allow them to do that. That is frustrating to them.
    Ms. Davis. I will yield the balance of my time.
    Mr. Burton. Mr. Schrock.
    Mr. Schrock. I would like to ask you a question, Mr. 
Chairman. In Captain McRaven's testimony, he said he has to 
deal with environmental laws and regulations enforced by 
Federal, State and local agencies. I thought if it was on a 
Federal reservation--maybe I am wrong--local and State 
regulations had no bearing. Is that right or not?
    Mr. Burton. I think we had better ask the panel. I am not 
familiar. Since it is a military base controlled by the Federal 
Government, don't they have control and don't they supersede 
the State and local requirements?
    Captain McRaven. Yes, sir. I am not so much sure it is the 
law itself but the interpretation of the law at the local level 
that is presenting some problems for us. As an Operational 
Commander, I deal through my chain of command and Naval Base 
Coronado has an environmentalist in the Natural Resources 
Branch that works with all of the local agencies to ensure we 
are in compliance with the law. Again, a lot of that comes down 
to the regulators and how they interpret the Federal, State and 
local laws and how that impacts us at that level.
    Colonel Carlisle. I also believe the EPA delegates a lot of 
their authority to the local and State level, so they actually 
have Federal authority at the local and State level. We may own 
the base but if we have to fly over or traverse part of the 
local area to get to a training range, that also becomes a 
factor.
    Mr. Schrock. Then you have three masters to deal with?
    Colonel Carlisle. Yes, sir.
    General LaPorte. We deal with them equally, State, local 
and Federal because of the way the law is written.
    Mr. Schrock. This is the most educational day I have had 
since I have been here. Like the chairman, I can't believe some 
of this stuff exists. We have to do something about this and 
quick.
    Mr. Burton. We will summarize the points raised by both 
panels and ask members of the committee to co-sign a letter 
authored by me to both the President and the Secretary of 
Defense. Also, we will look at legislative proposals to correct 
that. We have asked the first panel and we will also ask this 
panel for any recommendations or insights you might have on 
legislative reform that would correct the situation. We hope 
you will give us that information so we can try to deal with 
this problem.
    Mr. Schrock. I would like to be at the front of the line 
with any legislation to help you.
    Mr. Burton. Ms. Davis.
    Ms. Davis. That brought up a point. I am assuming sometimes 
you are forced to build in areas where you train and where you 
just conduct mitigation. What agency do you work with if you 
have to conduct mitigation and where do you get the money for 
the mitigation?
    Colonel Carlisle. In my case, we work with all three: 
local, State and Federal. Clearly the Federal level delegates a 
lot of that down to the State, so we have to deal with all the 
different levels of the Government. The money is out of pocket 
to a large extent. Eglin in particular spends about $20 million 
a year on environmental issues. That includes compliance and 
endangered species, a variety of things and it is basically 
O&M, operations and management money that you don't fix the 
infrastructure, you spend it on environmental compliance 
instead.
    Ms. Davis. You mean the money that you won't have to pay 
your electric bill this August 1?
    Colonel Carlisle. That would be the same money, yes.
    Captain McRaven. That is actually the money that goes 
toward readiness and sustainability of the force as well. One 
of our biggest problems at my level, I am only an O6 Commander 
but when you take $1.6 million over 3 years in order to conduct 
environmental assessments and impacts statements out of my 
budget, that budget takes care of one SEAL team for an entire 
year, just to give you an idea how much of an impact it has had 
on us.
    Colonel Carlisle. There was one case where we had grates at 
Langley that because of the age of the base, they were 
decaying. We put a left main landing gear of an F-15 through a 
grate, the airplane fell on its side, bent the nose gear, 
popped the tank, it was a bad day. We spent money to buy a Fish 
and Wildlife assessment person to make sure we didn't kill any 
Canadian geese instead of spending money to fix grates on the 
runway.
    Ms. Davis. That wouldn't have been the same Canadian geese 
that were on the golf course?
    Colonel Carlisle. Those would be the very same.
    Mr. Burton. And they all ought to be shot. If you have ever 
played on a golf course with a lot of those geese, you can't 
hit a shot.
    Ms. Davis. I am more concerned about them going into the 
plane's engines and losing a pilot.
    Mr. Burton. I am concerned about that too.
    One question we didn't get to ask of the first panel was in 
the last quarterly readiness report to Congress in 2000, the 
Air National Guard received a C4 rating in operations and 
training. Can you tell us what that means? We are relying more 
and more on the Air National Guard and the National Guard, is 
this affecting our capability and readiness?
    Colonel Carlisle. Yes, there is a portion of that coming 
from the range encroachment. The Air National Guard, obviously 
are in every State and very prolific with different ranges and 
different air fields and are not as centrally located in a lot 
of cases as the active because they will basically have one 
squad with airplanes at different bases.
    The ability to get to a range they can actually use and if 
you use the restrictions they have to fly under with respect to 
altitude, subsonic flight, that poses a significant effect on 
their abilities.
    Mr. Burton. Just like it does the active military?
    Colonel Carlisle. Yes, sir, but they have to deal with a 
lot more than we do. They have less time to go to Nellis, less 
time to UTTR and less time to come down to Eglin to fly with 
us.
    Mr. Burton. So if they are called up on active duty and 
have to go into a combat situation, even as a backup, and get 
into combat, they have some severe problems?
    Colonel Carlisle. Potentially, some of the units could have 
problems, yes, sir, because of their ability to spin up and 
spin time. With the AEF, we are trying to make it predictable 
and schedule their training in those good ranges like Nellis 
and UTTR and down at Eglin right before they go on an AEF 
cycle. In the past, that was not that way.
    Mr. Burton. All of you served in Desert Shield and Desert 
Storm with great distinction and we appreciate that. 293 
American men and women were killed in these operations and 
another 467 were injured. All of you can answer but General 
LaPorte, do you believe your units are able to train today like 
they did for Desert Storm and if not, I would like you to 
explain briefly what this means in terms of loss of life in the 
event we have to go into a combat situation as we did with 
Desert Storm and Desert Shield.
    I know it is tough to do because it is hard to compare what 
you think is going to happen with what did happen but it sounds 
to me like if we went into a combat operation like that today, 
we would probably lose considerably more personnel and have 
more injured. Am I correct or not?
    General LaPorte. I was the Chief of Staff of the First 
Calvary Division and we left Ft. Hood and went into Saudi 
Arabia with 2\1/2\ months of unrestricted training we were able 
to conduct as a division before we went north. I don't believe 
any adversary is going to give us 2\1/2\ months to conduct 
unrestricted training in the future. That is why it is so 
important, very similar to the Seals that we are able to train 
at home station so we deploy right from Ft. Hood. We get on 
boats and planes and land someplace that we are able to fight 
without a major opportunity for training.
    Colonel Carlisle. The only comment I would make is in the 
1980's, our pilots flew more sorties than they did in the 
1990's.
    Mr. Burton. Training sorties?
    Colonel Carlisle. Yes, sir, and there are a variety of 
reasons for that. We are flying 10 year older airplanes, aging 
airplanes is a factor, some issues with MC rates and declining 
MC rates. When we went into Desert Storm, the average pilot got 
more sorties in the 1980's than he has in the 1990's. That 
would have an impact.
    Mr. Burton. Was the maintenance better on the equipment 
then?
    Colonel Carlisle. There are a variety of reasons why the MC 
rates have gone down, the age of the aircraft, some parts 
shortages, and also manpower and retention. Our maintenance 
manpower is significantly different. We also train to a 
different concept. We train to fill the gap, the host squadron 
deploys and fights a war in Central Europe and we are all there 
at one time. Now, I send six airplanes to Northern Watch, six 
airplanes to Iceland and six airplanes to Keyflavic or to 
Southern Watch. Now, I am taking that maintenance unit and 
splitting it into thirds. All those things are different than 
they were in the 1980's which has a big impact.
    Mr. Burton. Captain McRaven.
    Captain McRaven. About the mid-1990's, we have flat lost a 
lot of our tactical training range, particularly at San 
Clemente Island owing to a lot of encroachment issues there. 
Some of those ranges were absolutely key in our ability to come 
over the beach, engage a target with live fire and retract back 
over the beach. Certainly by virtue of the fact we have lost 
some ranges, a lot of that capability has diminished.
    We have developed some pretty good workarounds but part of 
my biggest concern when we look at encroachment, I view it not 
only as the environmental and urbanization and accessibility, 
but the National Defense Authorization Act talks about the 
amount of time my Seals can be away from home, when you take a 
hard look at that, that is absolutely going to encroach on my 
ability to train.
    We talked earlier about is there a wall out there? In all 
honesty, I can tell you that wall is a lot closer than a lot of 
people think when you start laying what we call eye tempo act 
over the ranges where we have to conduct our workaround are 
outside the southern California area. We will not be able to 
stay within the law and still conduct the level of training we 
have historically conducted.
    Mr. Burton. General.
    General Battaglini. I would merely say that I agree with 
General LaPorte, I think we need to caution ourselves if people 
refer to the Gulf war as any sort of measure of readiness for 
the reasons the General said. We all went there and were able 
to train. Our mission is to be prepared and we need to be 
prepared now to go and to engage, to be committed to combat and 
if we are not prepared, we are doing a great disservice to 
those young men and women that all of us are responsible for.
    Mr. Burton. Let me conclude by saying to you, the first 
panel and everybody in the military, we really appreciate your 
dedication and your service and everything you do for this 
country. I am appalled as my colleagues are. I am sorry we 
didn't have more on the other side of the aisle to hear this 
because I think it is a bipartisan issue or nonpartisan and 
everyone ought to understand the problems you are facing.
    We are going to try to make sure we raise hell until people 
start listening and I promise we will do that. I am known to do 
that around here, so we will make sure some fences are rattled. 
Perhaps we will get something accomplished for you. We want to 
make sure you are ready to go into combat, God forbid you ever 
have to do that again.
    I hope you will submit your views in writing so we can 
incorporate that in the correspondence we are going to give to 
the relevant people.
    With that, thank you very much for being here.
    I ask unanimous consent that Representative Janice 
Schakowsky of Illinois be appointed to the Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources and without 
objection, so ordered.
    Thank you for being here. We stand adjourned.
    [Whereupon, at 3 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5041.379

[GRAPHIC] [TIFF OMITTED] T5041.380

[GRAPHIC] [TIFF OMITTED] T5041.381

[GRAPHIC] [TIFF OMITTED] T5041.382

[GRAPHIC] [TIFF OMITTED] T5041.383

[GRAPHIC] [TIFF OMITTED] T5041.384

[GRAPHIC] [TIFF OMITTED] T5041.385

[GRAPHIC] [TIFF OMITTED] T5041.386

[GRAPHIC] [TIFF OMITTED] T5041.387

[GRAPHIC] [TIFF OMITTED] T5041.388

[GRAPHIC] [TIFF OMITTED] T5041.389

[GRAPHIC] [TIFF OMITTED] T5041.390

[GRAPHIC] [TIFF OMITTED] T5041.391

[GRAPHIC] [TIFF OMITTED] T5041.392

[GRAPHIC] [TIFF OMITTED] T5041.393

[GRAPHIC] [TIFF OMITTED] T5041.394

[GRAPHIC] [TIFF OMITTED] T5041.202

[GRAPHIC] [TIFF OMITTED] T5041.203

[GRAPHIC] [TIFF OMITTED] T5041.204

[GRAPHIC] [TIFF OMITTED] T5041.205

[GRAPHIC] [TIFF OMITTED] T5041.206

[GRAPHIC] [TIFF OMITTED] T5041.207

[GRAPHIC] [TIFF OMITTED] T5041.208

[GRAPHIC] [TIFF OMITTED] T5041.209

[GRAPHIC] [TIFF OMITTED] T5041.210

[GRAPHIC] [TIFF OMITTED] T5041.211

[GRAPHIC] [TIFF OMITTED] T5041.212

[GRAPHIC] [TIFF OMITTED] T5041.213

[GRAPHIC] [TIFF OMITTED] T5041.214

[GRAPHIC] [TIFF OMITTED] T5041.215

[GRAPHIC] [TIFF OMITTED] T5041.216

[GRAPHIC] [TIFF OMITTED] T5041.217

[GRAPHIC] [TIFF OMITTED] T5041.218

[GRAPHIC] [TIFF OMITTED] T5041.219

[GRAPHIC] [TIFF OMITTED] T5041.220

[GRAPHIC] [TIFF OMITTED] T5041.221

[GRAPHIC] [TIFF OMITTED] T5041.222

[GRAPHIC] [TIFF OMITTED] T5041.223

[GRAPHIC] [TIFF OMITTED] T5041.224

[GRAPHIC] [TIFF OMITTED] T5041.225

[GRAPHIC] [TIFF OMITTED] T5041.226

[GRAPHIC] [TIFF OMITTED] T5041.227

[GRAPHIC] [TIFF OMITTED] T5041.228

[GRAPHIC] [TIFF OMITTED] T5041.229

[GRAPHIC] [TIFF OMITTED] T5041.230

[GRAPHIC] [TIFF OMITTED] T5041.231

[GRAPHIC] [TIFF OMITTED] T5041.232

[GRAPHIC] [TIFF OMITTED] T5041.233

[GRAPHIC] [TIFF OMITTED] T5041.234

[GRAPHIC] [TIFF OMITTED] T5041.235

[GRAPHIC] [TIFF OMITTED] T5041.236

[GRAPHIC] [TIFF OMITTED] T5041.237

[GRAPHIC] [TIFF OMITTED] T5041.238

[GRAPHIC] [TIFF OMITTED] T5041.239

[GRAPHIC] [TIFF OMITTED] T5041.240

[GRAPHIC] [TIFF OMITTED] T5041.241

[GRAPHIC] [TIFF OMITTED] T5041.242

[GRAPHIC] [TIFF OMITTED] T5041.243

[GRAPHIC] [TIFF OMITTED] T5041.244

[GRAPHIC] [TIFF OMITTED] T5041.245

[GRAPHIC] [TIFF OMITTED] T5041.246

[GRAPHIC] [TIFF OMITTED] T5041.247

[GRAPHIC] [TIFF OMITTED] T5041.248

[GRAPHIC] [TIFF OMITTED] T5041.249

[GRAPHIC] [TIFF OMITTED] T5041.250

[GRAPHIC] [TIFF OMITTED] T5041.251

[GRAPHIC] [TIFF OMITTED] T5041.252

[GRAPHIC] [TIFF OMITTED] T5041.253

[GRAPHIC] [TIFF OMITTED] T5041.254

[GRAPHIC] [TIFF OMITTED] T5041.255

[GRAPHIC] [TIFF OMITTED] T5041.256

[GRAPHIC] [TIFF OMITTED] T5041.257

[GRAPHIC] [TIFF OMITTED] T5041.258

[GRAPHIC] [TIFF OMITTED] T5041.259

[GRAPHIC] [TIFF OMITTED] T5041.260

[GRAPHIC] [TIFF OMITTED] T5041.261

[GRAPHIC] [TIFF OMITTED] T5041.262

[GRAPHIC] [TIFF OMITTED] T5041.263

[GRAPHIC] [TIFF OMITTED] T5041.264

[GRAPHIC] [TIFF OMITTED] T5041.265

[GRAPHIC] [TIFF OMITTED] T5041.266

[GRAPHIC] [TIFF OMITTED] T5041.267

[GRAPHIC] [TIFF OMITTED] T5041.268

[GRAPHIC] [TIFF OMITTED] T5041.269

[GRAPHIC] [TIFF OMITTED] T5041.270

[GRAPHIC] [TIFF OMITTED] T5041.271

[GRAPHIC] [TIFF OMITTED] T5041.272

[GRAPHIC] [TIFF OMITTED] T5041.273

[GRAPHIC] [TIFF OMITTED] T5041.274

[GRAPHIC] [TIFF OMITTED] T5041.275

[GRAPHIC] [TIFF OMITTED] T5041.276

[GRAPHIC] [TIFF OMITTED] T5041.277

[GRAPHIC] [TIFF OMITTED] T5041.278

[GRAPHIC] [TIFF OMITTED] T5041.279

[GRAPHIC] [TIFF OMITTED] T5041.280

[GRAPHIC] [TIFF OMITTED] T5041.281

[GRAPHIC] [TIFF OMITTED] T5041.282

[GRAPHIC] [TIFF OMITTED] T5041.283

[GRAPHIC] [TIFF OMITTED] T5041.284

[GRAPHIC] [TIFF OMITTED] T5041.285

[GRAPHIC] [TIFF OMITTED] T5041.286

[GRAPHIC] [TIFF OMITTED] T5041.287

[GRAPHIC] [TIFF OMITTED] T5041.288

[GRAPHIC] [TIFF OMITTED] T5041.289

[GRAPHIC] [TIFF OMITTED] T5041.290

[GRAPHIC] [TIFF OMITTED] T5041.291

[GRAPHIC] [TIFF OMITTED] T5041.292

[GRAPHIC] [TIFF OMITTED] T5041.293

[GRAPHIC] [TIFF OMITTED] T5041.294

[GRAPHIC] [TIFF OMITTED] T5041.295

[GRAPHIC] [TIFF OMITTED] T5041.296

[GRAPHIC] [TIFF OMITTED] T5041.297

[GRAPHIC] [TIFF OMITTED] T5041.298

[GRAPHIC] [TIFF OMITTED] T5041.299

[GRAPHIC] [TIFF OMITTED] T5041.300

[GRAPHIC] [TIFF OMITTED] T5041.301

[GRAPHIC] [TIFF OMITTED] T5041.302

[GRAPHIC] [TIFF OMITTED] T5041.303

[GRAPHIC] [TIFF OMITTED] T5041.304

[GRAPHIC] [TIFF OMITTED] T5041.305

[GRAPHIC] [TIFF OMITTED] T5041.306

[GRAPHIC] [TIFF OMITTED] T5041.307

[GRAPHIC] [TIFF OMITTED] T5041.308

[GRAPHIC] [TIFF OMITTED] T5041.309

[GRAPHIC] [TIFF OMITTED] T5041.310

[GRAPHIC] [TIFF OMITTED] T5041.311

[GRAPHIC] [TIFF OMITTED] T5041.312

[GRAPHIC] [TIFF OMITTED] T5041.313

[GRAPHIC] [TIFF OMITTED] T5041.314

[GRAPHIC] [TIFF OMITTED] T5041.315

[GRAPHIC] [TIFF OMITTED] T5041.316

[GRAPHIC] [TIFF OMITTED] T5041.317

[GRAPHIC] [TIFF OMITTED] T5041.318

[GRAPHIC] [TIFF OMITTED] T5041.319

[GRAPHIC] [TIFF OMITTED] T5041.320

[GRAPHIC] [TIFF OMITTED] T5041.321

[GRAPHIC] [TIFF OMITTED] T5041.322

[GRAPHIC] [TIFF OMITTED] T5041.323

[GRAPHIC] [TIFF OMITTED] T5041.324

[GRAPHIC] [TIFF OMITTED] T5041.325

[GRAPHIC] [TIFF OMITTED] T5041.326

[GRAPHIC] [TIFF OMITTED] T5041.327

[GRAPHIC] [TIFF OMITTED] T5041.328

[GRAPHIC] [TIFF OMITTED] T5041.329

[GRAPHIC] [TIFF OMITTED] T5041.330

[GRAPHIC] [TIFF OMITTED] T5041.331

[GRAPHIC] [TIFF OMITTED] T5041.332

[GRAPHIC] [TIFF OMITTED] T5041.333

[GRAPHIC] [TIFF OMITTED] T5041.334

[GRAPHIC] [TIFF OMITTED] T5041.335

[GRAPHIC] [TIFF OMITTED] T5041.336

[GRAPHIC] [TIFF OMITTED] T5041.337

[GRAPHIC] [TIFF OMITTED] T5041.338

[GRAPHIC] [TIFF OMITTED] T5041.339

[GRAPHIC] [TIFF OMITTED] T5041.340

[GRAPHIC] [TIFF OMITTED] T5041.341

[GRAPHIC] [TIFF OMITTED] T5041.342

[GRAPHIC] [TIFF OMITTED] T5041.343

[GRAPHIC] [TIFF OMITTED] T5041.344

[GRAPHIC] [TIFF OMITTED] T5041.345

[GRAPHIC] [TIFF OMITTED] T5041.346

[GRAPHIC] [TIFF OMITTED] T5041.347

[GRAPHIC] [TIFF OMITTED] T5041.348

[GRAPHIC] [TIFF OMITTED] T5041.349

[GRAPHIC] [TIFF OMITTED] T5041.350

[GRAPHIC] [TIFF OMITTED] T5041.351

[GRAPHIC] [TIFF OMITTED] T5041.352

[GRAPHIC] [TIFF OMITTED] T5041.353

[GRAPHIC] [TIFF OMITTED] T5041.354

[GRAPHIC] [TIFF OMITTED] T5041.355

[GRAPHIC] [TIFF OMITTED] T5041.356

[GRAPHIC] [TIFF OMITTED] T5041.357

[GRAPHIC] [TIFF OMITTED] T5041.358

[GRAPHIC] [TIFF OMITTED] T5041.359

[GRAPHIC] [TIFF OMITTED] T5041.360

[GRAPHIC] [TIFF OMITTED] T5041.361

[GRAPHIC] [TIFF OMITTED] T5041.362

[GRAPHIC] [TIFF OMITTED] T5041.363

[GRAPHIC] [TIFF OMITTED] T5041.364

[GRAPHIC] [TIFF OMITTED] T5041.365

[GRAPHIC] [TIFF OMITTED] T5041.366

[GRAPHIC] [TIFF OMITTED] T5041.367

[GRAPHIC] [TIFF OMITTED] T5041.368

[GRAPHIC] [TIFF OMITTED] T5041.369

[GRAPHIC] [TIFF OMITTED] T5041.370

[GRAPHIC] [TIFF OMITTED] T5041.371

[GRAPHIC] [TIFF OMITTED] T5041.372

[GRAPHIC] [TIFF OMITTED] T5041.373

[GRAPHIC] [TIFF OMITTED] T5041.374

[GRAPHIC] [TIFF OMITTED] T5041.375

[GRAPHIC] [TIFF OMITTED] T5041.376

[GRAPHIC] [TIFF OMITTED] T5041.377

[GRAPHIC] [TIFF OMITTED] T5041.378


</pre></body></html>
